<html>
<title> - LEGISLATIVE HEARING ON H.R. 4142, H.R. 4114, H.R. 2051, H.R. 2498, H.R. 2377, H.R. 2717, H.R. 4168, H.R. 4213</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
LEGISLATIVE HEARING ON H.R. 4142, H.R. 4114, H.R. 2051, H.R. 2498, H.R. 

                 2377, H.R. 2717, H.R. 4168, H.R. 4213
=======================================================================



                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE

                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 29, 2012

                               __________

                           Serial No. 112-54

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
73-775                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               JERRY McNERNEY, California, 
ANN MARIE BUERKLE, New York          Ranking
MARLIN A. STUTZMAN, Indiana          JOHN BARROW, Georgia
ROBERT L. TURNER, New York           MICHAEL H. MICHAUD, Maine
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             March 29, 2012

                                                                   Page

Legislative Hearing On H.R. 4142, H.R. 4114, H.R. 2051, H.R. 
  2498, H.R. 2377, H.R. 2717, H.R. 4168, H.R. 4213...............     1

                           OPENING STATEMENTS

Chairman Jon Runyan..............................................     1
    Prepared Statement of Chairman Runyan........................    32
Hon. Jerry McNerney, Ranking Democratic Member...................     2
    Prepared Statement of Hon. Jerry McNerney....................    32
Hon. Frank Guinta, U.S. House of Representatives (NH-01).........     3
    Prepared Statement of Hon. Guinta............................    33
Hon. Barney Frank, U.S. House of Representatives (MA-04).........     4
Hon. Mike McIntyre, U.S. House of Representatives (NC-07)........     5
    Prepared Statement of Hon. McIntyre..........................    34
Hon. Joe Donnelly................................................     6
    Prepared Statement of Hon. Donnelly..........................    34

                               WITNESSES

Col. Thomas Moe, Director, Ohio Department of Veterans Services, 
  Constituent Witness on behalf of H.R. 2051.....................     8
    Prepared Statement of Col. Moe...............................    35
Capt. Wilbur Jones, Constituent Witness on behalf of H.R. 2717...    10
    Prepared Statement of Mr. Jones..............................    36
Daniel Bendetson, Constituent Witness on behalf of H.R. 2498.....    11
Michael Bendetson, Constituent Witness on behalf of H.R. 2498....    12
    Prepared Statement of Daniel and Michael Bendetson...........    43
Hon. Max Cleland, Secretary, American Battle Monuments Commission    15
    Prepared Statement of Hon. Cleland...........................    44
Thomas Murphy, Director of Compensation Service, Veterans 
  Benefits Administration........................................    17
    Prepared Statement of Mr. Murphy.............................    45
    Accompanied by:

      Richard Hippolit, Office of the General Counsel, U.S. 
          Department of Veterans Affairs
Hon. Bruce E. Kasold, Chief Judge, United States Court of Appeals 
  for Veterans Claims............................................    21
    Prepared Statement of Hon. Kasold............................    48
Raymond Kelley, National Legislative Director, Veterans of 
  Foreign Wars...................................................    26
    Prepared Statement of Mr. Kelley.............................    49
Verna Jones, Director of the National Veterans Affairs and 
  Rehabilitation Commission, American Legion.....................    28
    Prepared Statement of Ms. Jones..............................    50
    Executive Summary of Ms. Jones...............................    54

                        STATEMENT FOR THE RECORD

Congressman Patrick J. Tiberi, Testimony for H.R. 2051, the 
  Veterans Missing in America Act of 2011........................    55
Rear Admiral Dan McKinnon (RET), Vice Chairman, Clark Veterans 
  Cemetery Restoration Association (CVCRA).......................    56


LEGISLATIVE HEARING ON H.R. 4142, H.R. 4114, H.R. 2051, H.R. 2498, H.R. 
                 2377, H.R. 2717, H.R. 4168, H.R. 4213

                              ----------                              


                        Thursday, March 29, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:32 a.m., in 
Room 334, Cannon House Office Building, Hon. John Runyan, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, Turner, McNerney, Barrow, 
Michaud, Walz.

            OPENING STATEMENT OF CHAIRMAN JON RUNYAN

    Mr. Runyan. Good morning. I know this is going to be a 
little bit hectic today having five panels, and I think we're 
voting probably every 45 minutes to an hour today, so I 
appreciate everybody's patience.
    This hearing on H.R. 4142, H.R. 4114, H.R. 4213, H.R. 2051, 
H.R. 2498, H.R. 2377, H.R. 2717 and H.R. 4168 will come to 
order.
    Obviously today we have a large number of witnesses present 
due to the high level of interest on some of the bills before 
us. Therefore, in the interest of time, I'm going to try to 
forego a lengthy opening statement, and just briefly touch on a 
couple of bills on today's agenda, which I personally have 
introduced.
    H.R. 4114, the Veterans Compensation, which is usually 
called COLA Act of 2012 provides a cost in living adjustment to 
veterans, disability compensation rates and other benefits. 
H.R. 4142 is the American Heroes COLA Act, which is related to 
the previous mentioned COLA bill Act of 2012, except this bill 
seeks to make a permanent annual increase to veterans 
disability compensation rates and other benefits by trying to 
tie the increase to the cost of living adjustments for social 
security benefits.
    This passage of the American Heroes COLA Act, veterans will 
never again have to depend on Congress to act to receive the 
increased cost of living adjustment they have earned through 
their service. Instead these increases will become automatic 
from year-to-year, just as the social security benefits 
increases are adjusted automatically every year.
    The final bill I have co-sponsored is 4213, the United 
States Court of Appeals Veterans Claims Residency Bill, this 
piece of legislation requires judges sitting on the United 
States Court of Appeals for veterans claims to reside within 50 
miles of the District of Columbia. This bill will ensure a more 
efficiently ran Court of Appeals for veterans claims by 
requiring judges to fully engage their case load, and manage 
their offices by maintaining a household reasonably close to 
their work location. This will have the desired effect of 
ensuring veterans receive justice without the unneeded delay 
due to extended commutes of Federal judges.
    Again, in the interest of time, I would like to reiterate 
my request that today's witnesses abide by the decorum of rules 
of this hearing, to summarize your statement in five minutes or 
less during your oral testimony. We have a large number of 
individuals ready to testify on legislation today, and I want 
to make sure everyone is heard in a timely manner.
    I would also remind that all present without any objection, 
your written statement or your written testimony will be made 
part of the hearing record. I appreciate everyone's attendance 
at this hearing, and will now call on the Ranking Member Mr. 
McNerney for any opening statement he would have.

    [The prepared statement of Chairman Jon Runyan appears in 
the Appendix]

           OPENING STATEMENT OF HON. JERRY MCNERNEY, 
                   RANKING DEMOCRATIC MEMBER

    Mr. McNerney. Thank you, Mr. Chairman. The purpose of 
today's hearing will be to explore the policy implications of 
eight bills, ranging on issues as varied as the disability 
compensation COLA to the residency requirements of the judges 
of the Court of Appeals for Veterans Claims.
    I support several of these bills, especially the disability 
compensation COLA offered by you Mr. Chairman. I'm glad to be a 
cosponsor of that bill, H.R. 4114. I also want to thank the 
Chairman for his support of two bills that I introduced this 
morning that will extend the temporary residence adaptation 
grant, as well as the VA work-study program.
    I am encouraged by the Veterans Day Moment of Silence 
offered by Mr. Frank of Massachusetts, and by the American 
World War II City bill, offered by Mr. McIntyre of North 
Carolina. I think these bills--all of the bills before us today 
are worthy of consideration by this Subcommittee. However, I 
have reservations with some of the measures because they are 
duplicative or unnecessary, and hopefully this hearing helps to 
address some of those issues.
    The Veterans Missing in America Act, H.R. 2051, sponsored 
by Mr. Tiberi is a good, well-meaning measure. The bill has 
support from some VSOs, but the VA has expressed some 
reservations, such as the unintended consequences of the 
confusion and uncertainty in benefits it may create for 
veterans and non-veterans alike. I look forward to further 
delving into this issue.
    I also took note of the possible duplication and confusion 
concerns raised by the VA and the VSO witnesses regarding the 
provisions of the RAPID Claims, H.R. 2377. They noted that it 
might also thwart efforts already underway in a provision 
already enacted into law, the Veterans Benefits Improvement 
Act. I hope that we will gain additional insight into these 
concerns today.
    I look forward to hearing more about H.R. 4168, introduced 
by Congressman Guinta, which would direct the ABMC to maintain 
Clark Veterans Cemetery in the Philippines. I believe proper 
justification, including diplomatic inputs, is needed to decide 
this issue.
    While we discussed this topic briefly at our last hearing 
on cemeteries, the ABMC implied that it had serious 
reservations on this directive. I think we need to all work 
together to properly honor and remember the individuals who are 
laid to rest at Clark Veterans Cemetery.
    I'm looking forward to hearing more about the CAVC 
residency bill, H.R. 4213, also sponsored by you Mr. Chairman, 
which would require CAVC judges to live within 50 miles of 
Washington. I concur with the stakeholders that there are 
probably better requirements upon which to base qualifications 
to serve on this Article I Court, especially given the advent 
of modern technological capabilities. At the very least, the 
distance limitation in the bill should be rethought.
    I thank all the Members for their thoughtful legislation, 
and I thank our other esteemed witnesses for joining us today 
and look forward to hearing your testimonies. Thank you and I 
yield back.

    [The prepared statement of Hon. Jerry McNerney appears in 
the Appendix]

    Mr. Runyan. Thank you, Mr. McNerney. And at this time, I 
would like to welcome my colleagues in the House, and thank you 
all for being here. First we will hear from the Honorable Frank 
Guinta from New Hampshire, who is sponsoring H.R. 4168, and 
then we will hear from the Honorable Barney Frank from 
Massachusetts who is sponsoring H.R. 2498. Then we will hear 
from Honorable Mike McIntyre from North Carolina, who is 
sponsoring H.R. 2717. And finally, we'll hear from the 
Honorable Joe Donnelly from Indiana, who is sponsoring H.R. 
2377.
    I'd like to welcome all of you to this legislative hearing. 
All of your complete written statements will be entered into 
the hearing record. Congressman Guinta, we will start with you. 
You are now recognized for five minutes.

STATEMENTS OF HONORABLE FRANK GUINTA, HOUSE OF REPRESENTATIVES; 
  HONORABLE BARNEY FRANK, HOUSE OF REPRESENTATIVES; HONORABLE 
    MIKE MCINTYRE, HOUSE OF REPRESENTATIVES; HONORABLE JOE 
               DONNELLY, HOUSE OF REPRESENTATIVES

                 STATEMENT OF HON. FRANK GUINTA

    Mr. Guinta. Thank you and good morning, Chairman Runyan, 
Ranking Member McNerney and distinguished Members of this 
Subcommittee. Thank you for the opportunity to testify on H.R. 
4168, the Caring for the Fallen Act of 2012.
    Let me begin with a question, say a cemetery in one of our 
hometowns was overgrown with weeds, abused by vandals and 
littered with dumped trash. And say that same cemetery 
contained the graves of hundreds of U.S. Armed Service members 
stretching back for a century. What would the people of our 
hometowns think and say about that particular situation?
    I think in my hometown of Manchester, New Hampshire phones 
would be ringing off the hook. Hundreds of outraged veterans 
and their families would, I believe, demand immediate action. 
That would likely be the reaction I think in everyone else's 
hometown across the country.
    But sadly, there are no outraged calls coming on behalf of 
Clark Veterans Cemetery in the Philippines. Left on its own for 
several years when the United States military was withdrawn 
from the area around 1991, it quickly fell into an appalling 
state of decline. ``Out of sight, out of mind,'' the saying 
goes. And that's what's happened in this situation. It soon 
acquired the shameful nickname ``The Cemetery America Forgot.''
    There are 2,200 United States veterans interred within 
Clark Veterans Cemetery and they deserve I think far better 
treatment. They answered when America called them, now we have 
it within our ability to answer when their resting place calls 
out for our attention.
    H.R. 4168 is simple and to the point. It designates the 
American Battlefields Monuments Commission, the ABMC, with the 
responsibility of caring for the cemetery, and authorizes it to 
make necessary arrangements to ensure its ongoing maintenance. 
This legislation is budget neutral, with the ABMC paying for 
the maintenance through existing appropriations.
    I'm grateful also to Representative Bill Owens, an Air 
Force veteran, who is the lead Democratic co-sponsor of the 
Caring for the Fallen Act. It's a reminder that Members can 
remove partisan labels and work side-by-side to honor those who 
wore our country's uniform. I'm also honored that this bill has 
the support of the Military Officers Association of America and 
the Air Force Sergeant's Association.
    When visitors enter Clark Veterans Cemetery, they pass 
through a gate inscribed with the words ``Served with Honor.'' 
Now it's time for Americans to honor that service by restoring 
the dignity these brave men and women so richly deserve. And 
I'm happy to answer any questions regarding this bill at this 
time.

    [The prepared statement of Hon. Frank Guinta appears in the 
Appendix]

    Mr. Runyan. Thank you, Congressman Guinta. Congressman 
Frank, you are now recognized for five minutes.

                 STATEMENT OF HON. BARNEY FRANK

    Mr. Frank. Mr. Chairman, this bill would establish a 
Veteran's Day Moment of Silence. It's an idea that was brought 
to me by constituents. I was sitting in my office in my regular 
office hours, and members of the Bendetson family came to see 
me. I believe they had been inspired by this in Israel, when 
they had seen the impact it had, and they came and suggested 
that we do it. I urged them to talk to some others to see if we 
could get a broad group of people who would support it. They 
did a very good job of that. And I appreciate the Committee 
accommodating my request to have Daniel Bendetson and Michael 
Bendetson, two brothers speak on behalf of this. And it was 
their idea, and they are eloquent and passionate about it.
    I completely agree with them, and in the interest of time 
and to thank the Committee for its accommodating them, I will 
defer for the rest of my comments. But I think this is an 
excellent idea. It's how our process is supposed to work. 
Citizens come to us, come with an idea, I responded favorably, 
as did many of my colleagues, and I am delighted they'll have a 
chance to advocate it before you. I think it's an idea that 
makes a great deal of sense, and hopefully we're able to adopt 
it.
    Mr. Runyan. I thank the gentleman. Congressman McIntyre is 
now recognized.

                STATEMENT OF HON. MIKE MCINTYRE

    Mr. McIntyre. Thank you, Mr. Chairman, Mr. Ranking Members, 
and Members of the Committee. I'm pleased to appear before the 
House Veterans' Affairs Subcommittee today to testify on behalf 
of H.R. 2717, a bill I've introduced to direct the Secretary of 
Veterans Affairs to designate cities in the United States as 
``American World War II Cities.''
    As we all know, it was just a day after the infamous attack 
upon Pearl Harbor on December 7, 1941, that our country entered 
World War II. And by the end of that conflict, more lives had 
been taken, and more land and property destroyed around the 
globe than any previous war.
    The main contributions of the United States to the Allied 
war effort comprised of money, industrial output, food, 
petroleum, technological innovation, and of course, our 
servicemen and women. By the end of the war, 16 million 
Americans had served in the conflict and more than 400,000 had 
been killed.
    Here at home, the wartime efforts of our cities was 
apparent as Americans everywhere tolerated additional work, 
rationing, and a diminished quality of life because of their 
patriotism and the confidence that life would soon return to 
normal when the war was won. And many cities based and trained 
our military services, dispatched their sons and daughters to 
fight in the war, assist with the transport of goods, and the 
manufacturing of the necessary ammunition, equipment, and to 
make sure that we had the arsenal we needed to stand up for 
democracy.
    And in some cities like Wilmington, North Carolina, in our 
congressional district, there were additional wartime efforts. 
The North Carolina Shipbuilding Company of Wilmington, the 
state's largest employer at the time, constructed 243 cargo 
vessels with which to provide goods and equipment to our 
soldiers. Wilmington provided the Atlantic Coast Line Railroad 
headquarters, three housing camps for German prisoners of war, 
a major training base for P-47 fighters, defense industries 
producing goods and equipment, a British patrol base, and a 
shipping point for the Lend Lease supplies to the Allies. These 
are but a few of the many, many examples that I could give, Mr. 
Chairman. And there are many other countless cities across this 
great Nation that also contributed to the World War II effort 
in more ways than one.
    So now with so many members of the Greatest Generation 
passing on daily, it's time that we do recognize the 
contributions that these cities gave before it is too late, and 
the lasting memories of the war continue to fade.
    The bill I've introduced will do just this by directing the 
Secretary of the Veterans' Affairs to designate one city in the 
United States each year as an all ``American World War II 
City'', based on contributions to the war effort during World 
War II and efforts to preserve the history of such 
contributions, including the preservation of organizations or 
museums, restoration of World War II facilities, and 
recognition, of course, of our great World War II veterans.
    With Wilmington being the first city so designated that 
others that may readily qualify and be allowed this similar 
designation that we recognize each city that would like to be 
able to apply to the Secretary of the VA for this type of 
recognition before we lose anymore of our World War II 
veterans.
    Therefore, I respectfully request your support of H.R. 2717 
which will ensure that, as appropriately granted, cities across 
this country who gave to this effort, can be recognized as 
``American World War II Cities.''
    And I am honored that in the next panel, my good friend, 
author and historian, Captain Wilbur Jones, a veteran, from 
Wilmington, North Carolina will be testifying before you in the 
next panel.
    Thank you for your consideration and thank you for your 
honoring us with your time.

    [The prepared statement of Hon. Mike McIntyre appears in 
the Appendix]

    Mr. Runyan. Thank you, Congressman McIntyre. Congressman 
Donnelly is now recognized.

                 STATEMENT OF HON. JOE DONNELLY

    Mr. Donnelly. Thank you, Mr. Chairman. Chairman Runyan, 
Ranking Member McNerney, Members of the Subcommittee, thank you 
for the opportunity to discuss this bill before the 
Subcommittee today.
    A year ago, I reintroduced H.R. 2377, The Rating and 
Processing Individuals' Disability Claims Act, along with 
Representative Geoff Davis of Kentucky, which was put together 
last Congress, after closely working with the Iraq and 
Afghanistan Veterans of America, and the Disabled American 
Veterans.
    The bill currently has 31 bipartisan cosponsors, and it 
received 105 cosponsors last Congress.
    The goal of the RAPID Claims Act was to improve the 
disability claims process for our Nation's veterans, something 
we all agree is necessary. In 2008, Congress passed the 
Veterans' Benefits Improvement Act. Included in that law was 
the Fully Developed Claim pilot program, which allows veterans 
filing fully developed claims to waive the lengthy development 
period and receive expedited consideration. FDC was originally 
a one-year pilot program conducted at ten VA Regional Offices, 
and, due to its success, VA announced that it would implement 
the program nationwide.
    I supported VA's decision to roll out this program 
nationwide, yet I wanted to see FDC become law with a few small 
changes. The RAPID Claims Act would codify FDC while also 
modifying it to protect a veteran's effective date for 
disability compensation, and ensuring a veteran who mistakenly 
files an unsubstantially complete claim in FDC, is given fair 
notice what further evidence is needed to complete the claim.
    I was happy to see our bill pass the House in 2010, as part 
of H.R. 6132, the Veterans Benefits and Economic Welfare 
Improvement Act. And I'm glad I was able to be a part of the 
discussion about ensuring the FDC program best serves our 
veterans.
    I appreciate the input provided today by our stakeholders 
on how we can continue to support this program, and now that 
another year has passed since the Rapid Claims Act was 
reintroduced, I see that the FDC program has continued 
successfully under VA's guidance, and at making VA change its 
course at this point may not be helpful to our veterans.
    As such, I would like to focus on Section 3 of the bill, 
which has a provision targeted at the appeals process. The bill 
would require that the VA appeals form is included with the 
notice of decision letter. Instead of waiting for a veteran to 
exercise his or her appeal rights before sending the form to 
the veteran. I believe this is a simple courtesy the VA could 
extend to our Nation's veterans to help them move through the 
appeals process more quickly.
    Once again, thank you, Chairman Runyan, Ranking Member 
McNerney, and to my Subcommittee colleagues for the opportunity 
today to highlight what I feel are simple solutions to help 
improve the disability claims process for our veterans.
    While we have achieved much on behalf of our veterans in 
recent years, I think we all agree further steps are needed to 
reduce the wait times faced by veterans and to simplify the 
process. Thank you very much.

    [The prepared statement of Hon. Joe Donnelly appears in the 
Appendix]

    Mr. Runyan. Thank you, Congressman Donnelly, We're going to 
move pretty quick. Thank you for that statement because 
obviously, and I think the Ranking Member feels the same way, 
there's a lot of duplicative stuff that we're already doing in 
our ability to move forward.
    Mr. Donnelly. Right.
    Mr. Runyan. A look forward to the stakeholders coming up 
and having their testimony to really get a grasp of the 
benefits of it.
    Mr. Donnelly. The VA has done--since this was initially 
introduced a Congress ago, the VA has done great work in moving 
forward, the ideas encapsulated in this. And so it has, as you 
said, made some of the things in here redundant, but there are 
still some parts that are important to do.
    Mr. Runyan. Very well. And the only question, Congressman 
Guinta, in dealing with this piece of legislation and for it to 
be taken over by one of our organizations, you are aware that 
there's a treaty we must reach with the Philippines.
    Mr. Guinta. Yes, I am.
    Mr. Runyan. Is your office willing to work with the State 
Department to try to move that forward?
    Mr. Guinta. Yeah. We've done the necessary research, and we 
feel confident that we can work with the State Department and 
the administration to put that treaty together. Work with the 
appropriate Members on the Senate side. We'd look forward to do 
that, and we would love to have the opportunity to see this 
legislation move forward while we're simultaneously working 
with the Department of State at the--for that treaty to occur. 
And we see no reason why it wouldn't.
    Mr. Runyan. Okay. Thank you. Does the Ranking Member have 
any questions?
    Mr. McNerney. No questions.
    Mr. Runyan. Well, I--on behalf of the Subcommittee, I thank 
each of you for your testimony and being here today, and you 
are all now excused. Thank you. Now, we'd like to ask the 
second panel to come to the witness table.
    On this panel, first we will hear from Colonel Thomas Moe, 
the Director for the Ohio Department of Veterans Affairs on 
behalf of H.R. 2051. Next we will hear from Captain Wilbur 
Jones on behalf of H.R. 2717. And finally, we'll hear from Mr. 
Daniel Bendetson
    Mr. McNerney. They're brothers.
    Mr. Runyan. Yes. And Michel Bendetson, who will testify on 
2498. Thank you all for traveling to our Nation's capital today 
as the interested citizens actively working for the betterment 
of our veterans' community, and I welcome all of you here.
    Colonel Moe, you are now recognized for five minutes for 
your testimony.

 STATEMENT OF COLONEL THOMAS MOE, DIRECTOR, OHIO DEPARTMENT OF 
VETERANS SERVICE ON BEHALF OF H.R. 2051; CAPTAIN WILBUR JONES, 
  ON BEHALF OF H.R. 2717; DANIEL BENDETSON, ON BEHALF OF H.R. 
      2498; AND MICHAEL BENDETSON, ON BEHALF OF H.R. 2498

                STATEMENT OF COLONEL THOMAS MOE

    Colonel Moe. Thank you, Chairman Runyan, and Ranking Member 
McNerney, and Members of the Subcommittee.
    I appreciate this opportunity to testify in support of 
House Resolution 2051, the Veterans Missing in America Act of 
2011, sponsored by Representatives Patrick Tiberi and Steve 
Stivers. I'm also excited to learn that Senators Portman and 
Begich have introduced a companion bill in the Senate.
    At funeral homes and other entities across the country, an 
unknown number of veterans remains have been abandoned or 
unclaimed for a number of reasons. In response to this tragic 
situation, a handful of veteran service volunteers began the 
Missing in America Project.
    When individuals pass away and there is no next of kin 
identified, the remains may stay at a funeral home 
indefinitely, without anyone laying them to rest. The Missing 
in America Project aims to identify veterans among those 
unclaimed remains, and provide a funeral and burial.
    Sometimes these dedicated volunteers run into legal 
obstacles as they pursue this noble cause. H.R. 2051 serves to 
remove those obstacles so that these military veterans might 
receive the respect they have earned and a proper burial.
    As Director of the Ohio Department of Veteran Services, I 
am pleased and honored to represent a state that has already 
taken action on this issue. The Ohio General Assembly passed 
the state component of this bill, which became law in 2010.
    It provides an exception to the next of kin law, so that 
the Secretary of the U.S. Department of Veterans Affairs, the 
VA, is granted authority to determine if unidentified remains 
in funeral homes and hospitals across Ohio are those of a 
veteran. If so, the VA may take disposition of the remains.
    The first burial of such veterans in Ohio under the Missing 
in American project will take place this May in the Dayton 
National Cemetery. It is our hope that other states will pass 
their own legislation to address issues that are outside 
Federal jurisdiction. Although we have made progress in Ohio, 
there's still much to be accomplished at the Federal level.
    H.R. 2051 addresses issues that fall under Federal 
jurisdiction regarding veterans who are missing in America. 
This legislation recognizes the work and dedication of the 
Missing in America project and cooperation with numerous 
veteran service organizations in identifying the unclaimed 
remains of our veterans.
    It also directs the VA Secretary to work with veteran 
service organizations to assist entities in identifying 
veterans eligible for burial in a national cemetery. The VA 
would cover the cost of those burials, if there is no next of 
kin and if there are no resources available to cover burial and 
funeral expenses.
    Finally, this legislation directs the VA Secretary to 
establish a publicly accessible database of the names of any 
veteran or other individual so identified. I'm proud to say 
that the National Associates of State Directors of Veterans 
Affairs has recently expressed support of the Missing in 
America project, and has urged our Nation's leaders to take 
action.
    Additionally, H.R. 2051 has the support of the National 
Funeral Directors Association, the American Legion, and the 
VA's own National Cemetery Administration.
    As a former member of the military who was listed as 
missing in action in Vietnam, this bill brings to mind my own 
family's challenges of having to deal with the uncertainty of 
my whereabouts and my fate. My wife, military comrades and our 
country made every effort to determine my fate, and those of my 
mates, and finally to return me and my comrades to our 
families.
    Just as our Nation is committed to finding and repatriating 
our troops who go missing in action on foreign soil, I hope 
that you will join me and Representative Tiberi and Stivers and 
our Senators to find and honor those who are still missing, but 
on our homeland in America.
    Thank you, Mr. Chairman, and Ranking Member.

    [The prepared statement of Colonel Thomas Moe appears in 
the Appendix]

    Mr. Runyan. Thank you, Colonel Moe. And again, thank you 
for your service to this country. And, Captain Jones, thank you 
for your service to this country, and you are now recognized.

               STATEMENT OF CAPTAIN WILBUR JONES

    Captain Jones. Thank you very much, Chairman Runyan, and 
Ranking Member McNerney, and Members of the Subcommittee.
    First, I would like to say what an honor and pleasure it is 
for me to be here today, to represent my hometown of 
Wilmington, North Carolina before this Subcommittee. And also 
to thank my Congressman Mike McIntyre of the Seventh District 
of North Carolina for his incredibly hard work in putting 
together this bill H.R. 2717 and in the work that he has done 
cooperating with us to support our efforts in North Carolina, 
to preserve our World War II history.
    Mr. Chairman, you and I have indirect links back to your 
alma mata. For two years, it was my honor to serve President 
Gerald Ford as an assistant and advanced representative, and 
with the hundreds and hundreds of events that I did for him, I 
would like to have one dollar for every time I heard Hail to 
the Victors Valiant. So we know that song as well.
    I grew up in World War II Wilmington. I remember what I was 
doing on December the 7th, 1941 when the Japanese attacked 
Pearl Harbor. It became my DNA to serve my country in the Armed 
Forces, and to also be a historian to try to preserve it.
    We are very proud of our success since 1998 in preserving 
our history. In fact, we even go back farther than that, 
because the North Carolina--the Battleship North Carolina 
Memorial which is the state's memorial to our dead and those 
who served, has been in Wilmington for 50 years, and certainly 
adds to the fact that we are the first American World War II 
city.
    Congressman McIntyre and I spent some time over the last 
couple of years approaching various organizations and 
individuals looking for someone who had the authority to 
recognize Wilmington or any city as America's World War II 
city. None did. So the Congressman suggested legislation, and 
to take this route. And I'm proud to have been a part of it.
    Mr. Chairman, this bill is nonpartisan, it is 
noncontroversial, it doesn't ask for any money for one thing. 
And we believe it would take a very minimum amount of time from 
the Federal government staff to do it. This is long overdue. 
Not only would we be honored to become the first designated 
World War II City for what we did during the war, for the war 
effort, and our preservation efforts subsequently, but this 
opens up an opportunity for other cities in the United States, 
some of which may not even realize what their contributions 
were to the war effort, or what they have done.
    This would encourage cities to try to preserve buildings 
and sites and memorials, and through museums, through displays, 
through working with students, writing papers and articles, 
publishing histories of their local area, to preserve it before 
it's all gone. And I mean not only from those who are dying, 
but also when other memories fade and the bulldozers tear down 
the sites that used to be.
    We need to celebrate and commemorate those events and 
anniversaries. In Wilmington in December of 2011, we celebrated 
the 70th Anniversary of our World War II USO building, which is 
now a community arts center. We have a mini museum of the 
Wilmington Home Front there. Other cities can do the same 
thing, and this bill will inspire to do that, because World War 
II is big business. It is very popular. There is a great 
opportunity to market this idea and concept to others, to work 
with the National Trust for Historic Preservation and other 
preservation groups.
    The Department of Veterans Affairs doesn't have to be too 
specific about the criteria, and too laborious about the 
application process. It can be simplified, and I offer my 
services to the Committee, and also to the Department, to work 
through it, and to do anything I can to help accommodate it.
    Thank you again, Mr. Chairman, for the opportunity to be 
here.

    [The prepared statement of Captain Wilbur Jones appears in 
the Appendix]

    Mr. Runyan. Thank you, Captain Jones. Next, we'll recognize 
Daniel Bendetson and Michael Bendetson. You both are now 
recognized for five minutes for your statement.

                 STATEMENT OF DANIEL BENDETSON

    Mr. Daniel Bendetson. Good morning, Mr. Chairman and fellow 
congressmen. My brother and I appreciate the opportunity that 
you have granted two students to present an idea that can 
possibly end the divisiveness in Washington, while honoring our 
heroic veterans.
    In April of 2010, my father and I traveled to Israel to 
visit family and tour the country. Prior to arriving in Israel, 
my father and I did not realize that Yom Hazikaron, Israel's 
equivalent of Memorial Day/Veteran's Day coincided with our 
travels.
    On the morning of Yom Hazikaron, my father and I were 
traveling along Highway 1 in Tel Aviv when at 11 a.m. a 
military siren sounded throughout the country and traffic and 
businesses came to a halt. Citizens stood next to their cars on 
the highway, and observed a two minute moment of silence, in 
honor of the soldiers who had made their dreams possible.
    Just a simple two minutes had reminded all citizens, rich 
and poor, young and old, gay and straight, black and white, to 
remember the sacrifices of both soldiers, past and present. If 
Israel's Nation which is so divided, politically and socially, 
was able to stand in unison for two minutes, then enactment in 
the U.S. is certainly possible.
    It is also important to mention that similar moments of 
silence are also observed in England and Canada on Armistice 
Day at 11 a.m. in their respective countries.
    So when I returned home to Massachusetts, I could not erase 
this image of the two moments from my mind, and it became 
increasingly clear that Veterans Day does not command the 
proper respect. I think we can agree that Veterans Day has 
become defined by mattress day sales, a day off from school for 
our children, and for many, another day off from work.
    I will defer to my brother the logistics of such event, but 
such a moment of silence would serve as a ritual more powerful 
than any speeches, and the mechanism for all Americans, 
democrats or republicans, liberals or conservatives, gay or 
straight, black or white, Native American or Asian, to say 
thank you to our beloved veterans.
    In doing so, it is our hope that such a moment would end 
the bitter divisiveness that plagues Washington, and allow for 
our legislators to craft bipartisan solutions to the many real 
issues that America faces today. Thank you.

    [The prepared statement of Daniel Bendetson appears in the 
Appendix]

    Mr. Runyan. Michael, do you have anything?

                 STATEMENT OF MICHAEL BENDETSON

    Mr. Michael Bendetson. Thank you again to the Committee, 
Mr. Chairman, Mr. Ranking Member.
    With the Israel experience so fresh in our minds, my 
brother and I have spent the last 18 months trying to bring a 
similar ritual to this country. With multiple co-sponsors, both 
Senator Scott Brown and Congressman Barney Frank from our home 
State of Massachusetts, introduced identical bills in the House 
and the Senate, known as the Veterans Day Moment of Silence 
Act, H.R. 2498 and S. 1348, on July 12th, 2011.
    This legislation is now pending before the House Veterans 
Affairs Committee where we have been graciously asked to 
testify today and also the Senate Judiciary Committee. The 
legislation calls for a national two minute moment of silence 
at the following times: 2:11 p.m. on the East Coast; 1:11 p.m. 
in the Central Time Zone; 12:11 p.m. in the Mountain Time Zone; 
11:11 a.m. on the West Coast; 10:11 a.m. in Alaska, and finally 
9:11 a.m. in Hawaii.
    Observation would not be mandatory, but my brother and I 
hope to use the logistical and publicity power of the Federal 
government to encourage citizens to participate in what we hope 
will become a national tradition.
    At this moment, our Nation will stand as one. For just a 
brief two minutes, regardless of status, we will all come 
together to recognize and honor those who risked self to serve 
country. Businesses, schools and transportation would pause for 
this short period, and their occupants would come outside and 
reflect in silence.
    With Veterans Day this year following on a Sunday, we have 
been in contact with the NFL, and are working so that fans in 
football stadiums all over the country can potentially 
participate simultaneously in this observation.
    As I'm sure I don't need to remind anyone in Washington 
today, this is a presidential election year. Veterans Day falls 
just five days after the election. We hope as a further show of 
American unity after a contentious election, that either re-
elected President Obama and his Republican opponent or 
President Obama and the new President-Elect will initiate 
together the two minutes of silence by placing a wreath on the 
tomb of the unknown solider at Arlington National Cemetery.
    As these two Americans of different political persuasions 
stand together in unity, we hope the rest of the country will 
as well.
    As my brother and I have pursued this idea, we've been 
fortunate enough to receive encouragement in support from all 
other the political spectrum. From Congressman Barney Frank and 
Massachusetts Governor Deval Patrick on the political left, to 
Grover Norquist and former Speaker Newt Gingrich on the 
political right, countless public figures have endorsed our 
idea, as an important step to uniting America and further 
honoring our most brave.
    We have also heard from countless veterans groups, active 
duty soldiers, and plain citizens in their words, the value of 
this beautiful idea. With your support and assistance, we hope 
to turn this beautiful idea into a beautiful reality. Thank 
you.

    [The prepared statement of Michael Bendetson appears in the 
Appendix]

    Mr. Runyan. Thank you very much and we will begin the first 
round of questions. First of all, Colonel Moe, what would 
really be your role in working with the VA, assuming this 
legislation gets passed into law and to help pursue the goals 
of this bill?
    Colonel Moe. Well, thank you, Mr. Chairman. I believe that 
my role in Ohio would be simply to work with the VA for the 
experiences that we have had and sharing those experiences and 
through our national organization of state directors as well 
to--for me and the organization, the association to work with 
the VA on the peculiarities from state-to-state. I believe it's 
a very doable process.
    Mr. Runyan. Can you touch on the nature of the 
complications that you're experiencing yourself and that could 
possibly be coming down the road?
    Colonel Moe. Well, every individual case could be 
difficult; however, we have not found any particular traps in 
what we're doing. There's such willingness to take part, and of 
course the pool of volunteers to help us through this, I 
particularly salute the American Legion for its support.
    So I think it's a matter of a case-by-case thing. Our first 
burial will take place, as I mentioned, this May. And I really 
know of no particular difficulties.
    Mr. Runyan. Do you have a rough idea how many states still 
maintain a next of kin law that can cause you some problems?
    Colonel Roe. Mr. Chairman, I really don't have any idea. 
However, we are speaking in generalities, that we would expect 
with modern technology and DNA identification and so forth, 
that the overall issue is a diminishing one. And so that as we 
first tackle the issue nationwide, the numbers would be fairly 
large, at least relatively large, and would taper off as time 
went by, with our ability to identify deceased with modern 
means.
    Mr. Runyan. Thank you very much. My next question is for 
Captain Jones. Can you give us some insight on the explanation 
of the competitive process we would be looking at, you know, 
Wilmington is actually in the forefront of this, but what do we 
do the next time around? How are we going to set the process 
and have the criteria, and what kind of criteria would be part 
of this to actually choose a future city?
    Captain Jones. Well, certainly the first criterion would 
be, what did you do during the war. And many cities in the 
United States would qualify for that right off hand. However, 
the--probably the most difficult one for those cities to meet 
would be criterion B, and that is, what have you done 
subsequently to preserve it.
    Look around at all of the sites in the United States from 
military camps to air bases to industrial plants that have long 
since disappeared. If there are any memorials or buildings or 
sites in someone's area, they should be recorded and 
recognized, and become part of that application process in 
meeting criterion number B.
    We're quite proud of what we've done in southeastern North 
Carolina, which we began in 1998. And there--however, the 
criteria I think should be fairly loose, and whatever process 
the Department of Veterans Affairs establishes, whether it's a 
panel of historians and scholars, World War II veterans, all of 
that would be determined, would be able to use probably any 
kind of judgment that they felt necessary to make that 
application through the process.
    Mr. Runyan. Thank you. And, gentlemen, the young gentlemen 
we have here it's obviously very rare to see such young people 
testifying in front of Congress, but thank you for being here 
and for what you're doing. Obviously, getting young people 
engaged and being part of the process is a huge part of our 
future leaders, and how the two of you have stepped up, I 
applaud you for that. And thank you for your testimony, you 
truly answered most of my questions in your testimony. So 
again, thank you for being here, and with that, I'll yield to 
the Ranking Member Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. The first thing I 
want to say is how impressive it is to see the passion of all 
the panelists this morning. You clearly have the best interests 
of our country and our veterans in mind. Thank you, and for 
your service as well.
    Colonel Moe, the only question I have is really about the 
concern that this program might lead to non-veterans getting 
benefits that should be restricted to veterans. And then 
somewhat about the disparity of benefits to different veteran 
groups. So if you could address that, I'd appreciate that.
    Colonel Moe. Thank you, Mr. Chairman, Ranking Member 
McNerney. The--of course, the overriding aim of the project I 
think meets with full approval of all parties, to identify our 
veterans, and to give them a proper burial.
    In my conversations and I know Congressman Tiberi's 
conversations with the VA, that the overriding issue is 
certainly we're in unison. There are details, as the old saying 
goes, the devil in the details, my understanding, and speaking 
to my colleagues in the VA, is that these are not 
insurmountable. These could be worked out in detail, and there 
really shouldn't be ultimately a problem once the final mark-up 
is made.
    Mr. McNerney. So you expect the Secretary or someone in the 
VA to sort of detail the regulations that will guide this 
process?
    Colonel Moe. Obviously I don't know the detailings or the 
work, but I believe that would summarize what is going to 
happen. There certainly are detailed elements of the law that 
need to either be clarified by both sides as to the issues, or 
where there's a snag worked out, issues of the database and so 
forth.
    Once again, my understanding is that these are absolutely 
workable.
    Mr. McNerney. Thank you. Captain Jones, first of all, thank 
you for serving our country. And your testimony was very 
passionate and very convincing, I have to say that, and I also 
want to thank you for your passion about documenting history 
and making it accessible to the rest of us.
    Captain Jones. Thank you, Mr. McNerney.
    Mr. McNerney. I guess my only concern is in the details of 
how we make these selections, and I appreciate your saying how 
flexible you're willing to be about that. And if that's the 
case, then I think something could be worked out. I'm not ready 
to go ahead fully with this bill yet, but let's work together 
and make sure that it's acceptable, and it's a good idea.
    Captain Jones. Thank you.
    Mr. McNerney. And my last comments. I just want to make a 
comment to the Bendetsons. What you've done shows that a 
couple, one or two people with a lot of passion, a lot of 
energy and determination can make a difference. 
Congratulations. I hope that we can get this done.
    I yield back.
    Mr. Runyan. Thank you, Mr. McNerney. Mr. Turner.
    Mr. Turner. No comments, Mr. Chairman, thank you.
    Mr. Runyan. Thank the gentleman. Mr. Walz?
    Mr. Walz. Nothing.
    Mr. Runyan. Nothing at all? Anything further, Kerry?
    Mr. Unidentified. No.
    Mr. Runyan. Well, on behalf of the Subcommittee, I'd like 
to thank each of you for your testimony, and thank you for 
being here. You're all excused. Thank you.
    Mr. McNerney. It's up to the Chairman.
    Mr. Runyan. Huh? What's that?
    Mr. McNerney. It's up to the Chairman.
    Ms. Unidentified. Yeah, do you want to go ahead, he'll be--
--
    Mr. Runyan. They're going to both be quick.
    Mr. Unidentified. You want to do the Senator?
    Mr. Runyan. Yeah, let's go back in the way of normal order.
    Mr. Unidentified. Thank you, Mr. Chairman.
    Mr. Runyan. Thank you.
    Ms. Unidentified. We came just in time.
    Mr. Runyan. Well, first we'd like to welcome to Honorable 
Max Cleland, the Secretary of American Battle Monuments 
Commission. And next we'll hear from Mr. Thomas Murphy, 
Director of the Compensation Service, Veterans Benefits 
Administration, he'll be accompanied by Richard Hipolit, the 
Assistant General Counsel of the Department of Veterans 
Affairs.
    Secretary Cleland, you are now recognized for five minutes.

STATEMENTS OF MAX CLELAND, SECRETARY, AMERICAN BATTLE MONUMENTS 
 COMMISSION; THOMAS MURPHY, DIRECTOR OF COMPENSATION SERVICE, 
   VETERANS BENEFITS ADMINISTRATION, ACCOMPANIED BY RICHARD 
  HIPOLIT, ASSISTANT GENERAL COUNSEL, DEPARTMENT OF VETERANS 
                            AFFAIRS

                    STATEMENT OF MAX CLELAND

    Mr. Cleland. Thank you very much, Mr. Chairman. I'm here to 
testify on H.R. 4168, the Caring for the Fallen Act, which 
would direct the American Battle Monuments Commission to assume 
responsibility for the former Clark Air Base Cemetery in the 
Philippines and to make necessary arrangements to maintain it.
    We agree that Clark Cemetery is a problem that warrants 
resolution. When the Air Force vacated Clark, and the base 
rights agreement with the Philippines expired, the cemetery 
became the responsibility of the Philippine government.
    Over time, this had the effect of leaving its care in the 
hands of a few dedicated VFW volunteers. They've done a 
wonderful job with limited resources, particularly considering 
that burials of U.S. veterans have continued since the Air 
Force's departure. But the volunteers cannot be expected to 
continue that effort indefinitely.
    We do not know how many of the 8,000 dead at Clark Cemetery 
are U.S. veterans. The Clark Veterans Cemetery Restoration 
Association Web site cites 1,800 of that 8,000 as confirmed 
veterans, and several thousand more as presumed veterans. We 
are on record with this Subcommittee stating that Clark 
Cemetery does not fall within our commission's core 
commemorative mission. That remains true.
    However, given the Air Force's history with the cemetery 
and the fact that veterans burials have continued, we initiated 
a meeting in ABMC's Virginia headquarters last December, with 
representatives of the Air Force and the Department of Veterans 
Affairs National Cemetery Administration to explore possible 
solutions to this issue. A consensus could not be reached on 
what should or could be done.
    ABMC has serious concerns with H.R. 4168 as drafted. While 
this bill's intention is laudable, we do not believe the bill 
addresses adequately the issues that must be resolved before 
any corrective action is taken, nor do we believe the proposed 
budget neutrality status to be reasonable or supportable.
    If the Congress should decide to move legislation forward, 
the administration believes such legislation should address 
three critical elements: access, authority, and funding.
    Access, to our knowledge, Mr. Chairman, the United States 
has no legal standing to undertake any work at Clark Cemetery. 
The Department of State would have to enter into negotiations 
with the Philippine government to provide long-term access to 
the cemetery. This would have to be accomplished before any 
agency of the Federal government could maintain the cemetery.
    Secondly, in terms of authority, ABMC has no authority to 
spend its appropriations to maintain a cemetery controlled by a 
foreign government, and the administration does not support any 
change in this position.
    Third, funding. Budget neutrality is not supportable. We 
cannot successfully complete a project of this scale without 
significant negative consequences on the rest of ABMC's 
program.
    There's presently no government estimate of the cost to 
restore and maintain Clark Cemetery. The Clark Veterans 
Cemetery Restoration Association estimates the restoration 
costs at $2 million and annual maintenance cost at a quarter of 
a million dollars. There are more than 8,000 graves to maintain 
at Clark Cemetery, more than we maintain at 19 of our 24 
cemeteries worldwide. Most of the head stones at Clark are 
partially buried in volcanic ash. We suspect that the 
Association's estimate understate the magnitude of the 
restoration work required.
    When I testified before you on February 16th this year, I 
reported that our fiscal year 2013 budget request for salaries 
and expenses was $2.7 million or five percent below our FY2012 
appropriation. Most of that reduction will be taken in 
maintenance and infrastructure programs.
    Mr. Chairman, you asked if we could sustain a reduction, 
I've told you we're okay for now, but that we cannot sustain 
such reductions indefinitely. We recognize that the Budget 
Control Act limits all agencies including ABMC to a budgeted 
level in the out years, and that any increase to our budget 
will have to be offset from another agency's out year 
allowances.
    Nonetheless, if the Congress directs our agency to take on 
a large scale new program requirement, such as the restoration 
and maintenance of Clark Cemetery, even the Association's 
conservative cost estimates would reduce our FY2013 funding 
request by an additional four percent, for a total reduction of 
$5 million.
    Taken further, this would result in a 14 percent cut in 
program funding for engineering, maintenance, horticulture, 
logistics, and interpretation around the world. This is not 
budget neutral for an agency of our size and budget. An 
unfunded new mission of the scope of Clark Cemetery cannot help 
but have a significant impact on our ability to execute our 
core mission, honoring America's war dead.
    H.R. 4168 has serious access, authority, and funding issue 
problems that prevent us from supporting this legislation. 
Thank you, Mr. Chairman.

    [The prepared statement of Max Cleland appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Secretary. Mr. Murphy, you're 
now recognized.

                   STATEMENT OF THOMAS MURPHY

    Mr. Murphy. Thank you, Chairman Runyan, Ranking Member 
McNerney, and Members of the Subcommittee. Thank you for the 
opportunity to present the views of the Department of Veterans 
Affairs on several legislative items. Joining me today is 
Richard Hipolit, Assistant General Counsel.
    I'm honored to be seated on this panel with Secretary Max 
Cleland whose service and sacrifice to this country is well 
known.
    H.R. 4142, the American Heroes COLA Act would provide 
permanent authority to the Secretary of the Veterans Affairs to 
implement COLA increases for disability compensation and DIC 
for veterans' survivors. This bill would direct the Secretary 
to increase the rates of those benefits whenever a COLA 
increase is made to benefits under Title II of the Social 
Security Act.
    This bill would also make permanent the rounddown 
requirement for compensation cost-of-living adjustments.
    VA supports this bill because it would be consistent with 
Congress' long-standing practice of enacting regular cost-of-
living increases for compensation and DIC benefits, but would 
eliminate the need for additional legislation to implement such 
increases in the future.
    H.R. 4114, the Veterans' Compensation COLA Act of 2012, 
would require the Secretary of Veterans Affairs to increase the 
rates of disability compensation and DIC for survivors of 
veterans effective December 1, 2012. Current estimates suggest 
that the Consumer Price Index will increase by 1.9 percent.
    VA wholeheartedly supports this bill because it would 
ensure that the value of veterans' benefits would keep pace 
with the increase in consumer prices.
    H.R. 2051, the Veterans Missing in America Act of 2011, 
would direct the Secretary to cooperate with VSOs to assist 
entities in possession of unclaimed or abandoned human remains 
in determining whether such remains are those of veterans or 
other persons eligible for burial in a national cemetery. If 
so, the bill would provide for burial in a national cemetery 
and cover the cost of preparation, transportation, and burial. 
This bill would further direct VA to establish a national 
database of such identified individuals.
    VA strongly supports the goal of ensuring that those who 
have earned the right to burial in a national cemetery are 
accorded that honor. To ensure that eligible veterans receive 
burial in a national cemetery, VA currently works with states, 
counties, municipalities, and private organizations to 
determine the eligibility of unclaimed and abandoned remains 
that are held at funeral homes or coroner's offices.
    VA has concerns, the bill could be read to expand existing 
funeral and transportation benefits to certain non-veterans 
that are not available to some veterans eligible for burial in 
a national cemetery.
    The VA would like to offer technical assistance in order to 
ensure that all veterans receive the honorable burial they have 
earned.
    Section 3 of the bill would direct VA to establish a 
database of the names of any veterans or other individuals who 
are determined to be eligible for burial in a national 
cemetery. VA currently performs this function through a 
publicly accessible database, known as the National Gravesite 
Locator.
    H.R. 2498, the Veterans Day Moment of Silence Act, would 
require the President to issue a yearly proclamation calling 
for observance of two minutes of silence on Veterans Day. VA 
supports this bill.
    H.R. 2377, The Rating and Processing Individuals' 
Disability Claims Act would establish procedures for the 
expeditious adjudication of fully developed claims. Section 2 
of the bill provides that if a claimant submits a fully 
developed claim, VA would provide the claimant with the 
opportunity to waive any claim development period and would 
provide expeditious treatment of the claim.
    Section 3 of the bill would provide that when VA denies a 
benefit sought, it will provide the claimant with any form or 
application required by the Secretary to appeal such 
decision.'' VA does not support Section 2 of this bill, as 
further statutory authority is not needed for VA to carry out 
its fully developed claim program.
    The Secretary complied with the Public Law 110-389, and 
carried out a one-year fully developed claim pilot program. 
Based on the favorable results of this pilot, VA has deployed 
and fully implemented this program, thereby rendering H.R. 2377 
unnecessary.
    VA does not oppose Section 3 of this bill, although we 
consider this provision unnecessary. VA is currently testing an 
optional NOD form that will make that form readily available if 
it proves to be beneficial to veterans.
    H.R. 2717 would direct the Secretary of Veterans Affairs, 
each year, to designate one city in the United States as an 
American World War II City. VA supports the goal of 
commemorating our Nation's World War II efforts.
    H.R. 4213 would require that active judges of the U.S. 
Court of Appeals for Veterans Claims reside within 50 miles of 
the District of Columbia. This absence of such a residency 
requirement has not created difficulties for VA. Accordingly, 
we perceive no need for this legislation.
    This concludes my statement, Mr. Chairman. I would be happy 
to entertain any questions you or the other Members of the 
Subcommittee may have.

    [The prepared statement of Thomas Murphy appears in the 
Appendix]

    Mr. Runyan. Thank you very much. I have one quick question, 
and a vote has just been called, so we'll try to get in a round 
of questioning with this panel, so we can let you guys go.
    But, Secretary Cleland, and this is a massive assumption, 
assuming that this Committee, this Congress takes care of the 
fiscal problems that would arise from this, would you be 
willing to take that on? Obviously, the State Department is 
involved in the whole process, but is it the financial aspect 
of it that worries you the most?
    Mr. Cleland. No, sir, it's not. It's that this is not what 
we do. We honor and commemorate American war dead. Nearly 
everyone in our cemeteries--125,000--are war dead. And we are 
the American Battle Monuments Commission, we run these 
cemeteries as monuments and memorials. We have chapels there, 
we have superintendents there, we have a memorial. We have all 
kinds of interpretive efforts on the Web site now.
    So that's what we do. We interpret American battles and war 
dead. We are not the American Battle Cemetery Commission. We 
have cemeteries, but it is not our common practice to bury 
people. We honor American war dead. That's what has been done. 
And the war dead in our cemeteries belong to the U.S. Army.
    So this is completely out of our bailiwick and it is 
completely foreign to what we do. This is a post cemetery, a 
former post cemetery run by the Department of Defense, either 
the Army early on in the 20th Century or the Air Force later.
    So in thinking this thing through, I thought first, you've 
got to get the State Department to negotiate the land from the 
Philippines and access to it. Secondly, you've got to figure 
out how much this would cost. And third, the Committee might 
want to look back at who had this cemetery for 90 years, that's 
the Department of Defense. It's a post cemetery, a military 
post cemetery, and they have certain protocols that they deal 
with.
    This is not what we do or have done since 1923.
    Mr. Runyan. Thank you very much.
    Mr. Cleland. Yes, sir.
    Mr. Runyan. Mr. Murphy, I know in the last panel, we're 
going to have some of the VSOs dealing with the COLA. Can you 
give us a little insight on the round down requirements, and 
you know, the benefits that are derived from its usage.
    Mr. Murphy. The rounddown provision, okay. The benefits 
that are derived from its usage are explained in great detail 
in the written testimony, but I'll go through a couple of the 
items that I have here.
    The COLA rounddown to the next whole dollar results in 
PAYGO Savings that would be $29 million in fiscal year `14, 
354.5 million for five years, and $1.8 billion over a ten year 
timeframe. What that essentially provides for is if a veteran 
is in receipt of payments of $9.48, it would be rounded down to 
$9, and those pennies add up over the number of veterans and 
the number of years to some significant numbers.
    The provision in this bill would make that permanent going 
forward. That authority expires for us, I believe it's in 2013.
    Mr. Runyan. Okay. And also dealing with 2051, and Veterans 
Missing America Act, you perceive any cost that you incur as a 
result of this bill?
    Mr. Murphy. We do not.
    Mr. Runyan. You do not?
    Mr. Murphy. No.
    Mr. Runyan. With that, recognizing Ranking Member Mr. 
McNerney.
    Mr. McNerney. Thank you. Thank you for testifying today. 
Mr. Cleland, one of my biggest concerns about H.R. 4168 is the 
diplomatic issues, as well as the Department of Defense issues, 
and I think those are almost overwhelming. Do you have any 
comment on that aspect of the legislation?
    Mr. Cleland. Thank you, Congressman McNerney. I've thought 
about this for a long time. And like I said, step number one is 
that this Committee and this Congress could unanimously pass 
this legislation, could be signed into law and signed by the 
President, and nothing would happen.
    Because this is a foreign government one is dealing with. 
So one would have to establish a relationship with the 
Philippines, and that would have to be through the State 
Department and some kind of revision of the existing treaty and 
our relationships with the Philippines in order to get access 
to the land, just to the land.
    Secondly, you'd have to figure out how much it cost. No one 
really knows.
    Third, you might want to go back to the who ran it for 90 
years. It was elements of the Department of Defense. They're 
the ones that have the records, they--whatever records exist. 
So I appreciate the issue, but it's not something the America 
Battle Monuments Commission can take over.
    Mr. McNerney. Thank you, Mr. Cleland. Mr. Murphy, I 
understand you have an opposition to H.R. 2051, could you 
elaborate a little bit on that, please?
    Mr. Murphy. Yes, This is a very technical issue, so what 
I'm going to do is defer to Mr. Hipolit, from our General 
Counsel.
    Mr. Hipolit. Yes, we have one concern as a technical matter 
on that bill. I think the bill can be read to indicate that VA 
would pay funeral and transportation expenses for persons who 
are eligible for burial in a national cemetery, which would 
include persons who are not veterans. Right now, there are very 
limited, well-defined classes of people who can get monetary 
payments from VA for funeral expenses and transportation 
expenses. Not all veterans get that. Some of the classes are 
people who are getting compensation or pension at the time of 
their death, wartime veterans whose bodies are held by a estate 
and there is no next of kin; service-connected deaths, and 
people who die in a VA facility. There is a provision for 
funeral and transportation expenses in those cases. Again, it's 
fairly well-defined classes, not all veterans get that.
    This bill would allow non-veterans to get those expenses--
--
    Mr. McNerney. So it could be perceived as pretty unfair by 
a large number of veterans or veterans' groups?
    Mr. Hipolit. I'm sorry?
    Mr. McNerney. It could be perceived as unfair?
    Mr. Hipolit. Yes, that is our concern, that we'd be putting 
non-veterans ahead of veterans as far as those kind of 
payments. I think it's a technical matter that we could 
certainly help work out if we could work with Committee staff 
on that.
    Mr. McNerney. Okay. I think I'm going to yield back at this 
point, Mr. Chairman.
    Mr. Runyan. I want to thank the gentlemen and on behalf of 
the Subcommittee, thank each of you for your testimony today, 
and look forward to working with you in the future on the 
challenges that face our Nation's veterans. And you all are 
excused, and that being said, we are being called to the floor 
for a series of two votes. So we're going to stand in recess 
till probably noon.
    [Recess.]
    Mr. Runyan. The Committee will come to order and sorry 
about the delay, but thanks for coming back.
    I now welcome Chief Justice Bruce Kasold of the United 
States Courts of Appeals for Veterans Claims. We appreciate 
your attendance today. And Justice Kasold, you are now 
recognized for five minutes for your testimony.

           STATEMENT OF HON. CHIEF JUDGE BRUCE KASOLD

    Chief Justice Kasold. Thank you, Mr. Chairman, Ranking 
Member McNerney and Members of the Committee for the 
opportunity to present testimony on proposal H.R. 4213, to 
establish in statute, a duty station for the judges of the 
United States Court of Appeals for Veterans Claims, consistent 
with other Federal courts, as well as a requirement to reside 
within 50 miles of the District of Columbia.
    Behind me today is Judge Davis from the court, and the 
Counsel to the Board of Judges, Alice Kerns. In the haste of 
creating the Court of Appeals for Veterans Claims, still the 
youngest Federal appellate court, the application of several 
policy issues written in statute and applicable to Federal 
judges in general, appear to have been overlooked with regard 
to the judges of the Court of Appeals for Veterans Claims.
    A defined duty station as one example. The duty station for 
Federal judges is generally prescribed by statute, see 28 USC 
456, but until your proposal, and a mirror proposal in the 
Senate, S. 2045, no similar legislation has applied to the 
Court of Appeals for Veterans Claims.
    In the absence of legislation, the Court's Board of Judges 
has determined that the duty station for all court personnel, 
including the judges is the court's principal office. This 
mirrors your proposed bill.
    With regard to a residence requirement, we note that 
congressional mandate with regard to such a requirement for an 
appellate court with national jurisdiction is mixed. Although 
the judges of the Court of Appeals for the Federal Circuit are 
required to reside within 50 miles of the District of Columbia, 
see 28 USC 456, the judges of the Court of Appeals for the 
Armed Forces have no residency requirement. And as you know, at 
this time, the Court does not have a residency requirement.
    To the extent the perceived need for a residency 
requirement arises from concerns over the efficient operation 
of the Court, we do note that working from a remote area is 
becoming more practical. Our cases are now electronically filed 
and stored, and are accessible anywhere a judge can locate a 
computer. Decisions are circulated for review electronically, 
and this is the preferred method to distribute cases for 
review, even for those present and working at the court, as 
opposed to working remotely.
    Conversations can and do take place by e-mail, phone, and 
video, though video is not widely available to the court just 
yet. Indeed, recently one of our judges was on travel and 
worked a case electronically with his IPad while his wife was 
driving the car.
    Moreover, the advent of E-filing, and enhanced electronic 
communication capability, as well as recent changes in the 
administrative processing of appeals after they have been 
briefed, (as discussed in my testimony before this Committee 
last month), have resulted in the Court's most productive 
years.
    Should Congress proceed with a residency requirement for 
the Court, we suggest that it be tied to the greater Washington 
D.C. metropolitan area, and not just the confines of the 
District of Columbia. This would be consistent with the 
statutorily required location of the court's principal offices, 
which is anywhere in the Washington, D.C. greater metropolitan 
area. See 38 USC 7255.
    As you proceed to consider the subject bill applying the 
duty station and residency requirements applicable to other 
Federal courts in general to the Court of Appeals for Veterans 
Claims, it seems appropriate to now consider adding three 
additional equalizing policies that we have discussed in the 
past.
    Specifically, we discussed modifying the survivor benefits 
and insurance statutes to provide coverage generally available 
for the other Federal judges, and amending our pay statute to 
provide Federal appellate judicial pay, as we are the only 
Federal appellate court not receiving such pay at this time.
    There is a final equalizing bill that we urge remain under 
consideration. We're the only Federal appellate court without 
its own courthouse. And to our knowledge, the only Federal 
court of record without its own courthouse. We understand the 
Nation's current fiscal situation may not warrant building a 
courthouse at this time, but we share the veterans service 
organization's support for such a courthouse, and the concept 
that when the next Federal courthouse is to be built, serious 
consideration should be given to making sure it is the veterans 
courthouse.
    Thank you again for the opportunity to testify in this 
matter. I'll take any questions.

    [The prepared statement of Chief Judge Kasold appears in 
the Appendix]

    Mr. Runyan. Thank you, Judge. Pertaining to that and you 
spoke to it very eloquently there in your statement, and 
talking about working from the road or working in the car, in 
your personal opinion, are there any certain benefits that you 
would have from actually physically being there, and being 
physically present in a duty station?
    Chief Justice Kasold. I think that presence is the key, and 
I guess that's why the residency requirement can only provide 
the encouragement to people to be there. But presence is the 
key. We are an appellate court addressing important issues 
raised by veterans. It's not the type of issue where a claim is 
submitted and decided over video discussion with a VA regional 
office or the Board. Rather, its' legal issues, and the 
interpretation of statutes, that occurs through collaborative 
discussion between the judges or among the judges with their 
chambers. And I think in chambers is another issue again, how 
judges relate to their staff is more of a judge's call.
    So on the important issues, the panel issues, the en banc 
issues, I think that presence is important. The Board of 
Judges' meetings where we discuss the issues important to the 
court overall also are important.
    Today all the judges live locally or are personally 
committed to coming to those events that I just mentioned, and 
I think that recognizes the importance of being present. As I 
might say, similar to the presence of some Members of Congress 
to testify on bills that they felt are important; to come 
personally instead of sending you an e-mail or just a letter.
    So I think that there are advances in the electronic means 
of communication, and I'm not sure that down the road, we won't 
be standing here in a hologram and that might work, I don't 
know. But today, I think you can come to agreement better when 
you see eye-to-eye, and I think that most of the studies 
support that, at least at this time.
    So the idea of a residence requirement somewhere in the 
area--and I can't say 50 miles is a magic number, and that's 
why I'd suggest the greater Washington, D.C. metropolitan 
area--is encouragement to recognize that the court's presence 
is here. Its chambers are here. The staff are here. All the 
court staff is here. The courtroom is here. And for those 
significant important issues, the judges should be here, as is 
recognized by all the judges now.
    Mr. Runyan. And dealing with obviously a stand alone 
courthouse, would that have any influence on your ability and 
process?
    Chief Justice Kasold. I think I've been on record for 
saying that we can work wherever you want us to work, and I 
honestly mean that. The courthouse is more a statement for 
veterans. They fought a long time to receive judicial review. I 
think that judicial review is important on particularly two 
aspects. One, the veteran gets an appellate review of his claim 
by a body of judges. Even though there are single judge 
decisions that are rendered, all the judges review them. These 
decisions are circulated, reviewed by the judges, and can be 
called to panel if there's a significant issue and so forth.
    And then, of course, you have the panel cases that 
systemically have an impact on the entire VA and how cases are 
processed or might be reviewed. I think that the courthouse is 
the symbol and statement given to the veterans. As you've said 
in a House Resolution--I didn't bring those words with me or 
the Senate Resolution, and I certainly cannot rise to the level 
of the eloquence of which was stated in both of those--but it's 
that recognition that veterans are entitled to the same type of 
justice, the same aura of justice, the same presence of justice 
that the average citizen gets in any of the courthouses, 
Federal courthouses in particular that they enter into.
    And I think it'd be a permanent long standing statement of 
that. So that, I think, is the reason for support, and a number 
of veteran service organizations have said that. But I don't 
want to misstate. The quality of the justice that is being done 
with the judges all committed to coming together for the 
important issues, et cetera, would not change just because 
there was a courthouse.
    Mr. Runyan. Thank you. Recognize the Ranking Member, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. Judge Kasold, could 
you describe the current conditions that the court works in? Is 
it a cramped, is it dark, is it in the basement, what sort of 
conditions are they right now?
    Chief Justice Kasold. The reality is that a few years ago 
it was getting cramped, because we had the records and paper, 
if you will, and they were piling up. Just as a side note, 
recently we went over and visited the Board of Veterans' 
Appeals (BVA), and they still have an awful lot of the cases 
that are in paper. But records are put into electronic 
transmission when they come to the Court, and VA is going that 
way for all their records. But at this point, there's still 
paper, and the BVA has an entire floor dedicated to the paper 
documents.
    So if we still had paper documents, we would be very, very 
cramped, and we were for a number of years. Right now, VA 
itself, Group 7 used to be in the building, they moved out, and 
we are taking over that particular floor. We are constructing 
two additional chambers for, hopefully, the confirmation and 
appointment of the two additional judges that are now awaiting 
confirmation. And we will transfer some of the people who are 
on our upper floors down to the sixth floor. And so we have 
adequate space. It's actually very nice space for the judges 
and the staff. We can't complain about the space.
    Mr. McNerney. Do most of the judges come in on a daily 
basis----
    Chief Justice Kasold. Yes, sir.
    Mr. McNerney. --to do their work.
    So it's typical for a judge to come in to the building?
    Chief Justice Kasold. It's typical for the judge to come 
in, work in their chambers with their staff.
    Mr. McNerney. So this bill doesn't apply any hardship to 
judges or present a limiting factor in terms of people that 
would want this position?
    Chief Justice Kasold. I don't believe there are any 
statistics that support the idea that people would turn it down 
because the court was located in one particular location.
    We do have a judge who does not live in the area, but as I 
said, he's committed to coming to the Board of Judges' 
meetings, he's committed to coming to the oral arguments and 
panel discussions, and it's one, not multiple judges, so the 
coordination for setting those things up can be accomplished.
    Mr. McNerney. So it would be a bit of a hardship on that 
one judge?
    Chief Justice Kasold. Well, I believe this bill is 
prospective primarily, as I understand it. Certainly the 
enforcement provisions are prospective, and I would recommend 
that it only be prospective. All of the current judges received 
a commission without a residency requirement, and although all 
the judges did move into the area, as I indicated, one judge 
has for personal reasons, had a reason to make a move. He's got 
the commitment to come back to the court for the purposes I've 
mentioned.
    So I would make it prospective, so that a judge being 
appointed knows, and makes the move, and has that commitment to 
it--if you were to go down this particular route.
    If there's a way to say you go to work in the office, 
that's really the issue, and I don't mean necessarily on a 
daily basis. I mean on these important issues and the 
discussion that takes place on those issues.
    Mr. McNerney. I mean, I have to say I'm a little surprised, 
I thought you would be on the other side of this issue.
    Chief Justice Kasold. Which is?
    Mr. McNerney. That you'd be opposed to this.
    Chief Justice Kasold. You asked for the organization's 
view. I must tell you the organization's view is that of the 
Board of Judges (we have six judges) and a majority voiced an 
expression against the residency requirement, and ultimately 
viewed it as a policy issue because there are courts that have 
it and courts that don't have it.
    I think it comes down to this: If you have the commitment 
to come for these issue discussions, for the face-to-face type 
discussions, you don't need a residency requirement. As the 
communications change, will you have people saying I want to do 
that over the phone, et cetera? What is the effect of that on 
the appellate review, and the interpretation of the law, et 
cetera? To my knowledge, none of the courts do that. They all 
meet.
    Even the Circuit Courts which have a requirement for a 
judge to live in at least one--live in the state where they 
come from--meet once or twice during the month at the central 
location to discuss the cases that they have.
    You can circulate an awful lot of things electronically, 
but at the end, that discussion is what I think is the 
important thing. And it really comes down to weighing--is it 
important? I think maybe a younger generation might have a 
different view. You've got to admit, they do things a little 
bit differently.
    Mr. McNerney. Yes. But you feel it is a quality issue, a 
quality of justice issue?
    Chief Justice Kasold. I think ultimately it's the quality 
of judging--just like we had two young people come here and 
testify in support of their bill, I think they'd feel more 
comfortable doing that than just relying on a letter or even a 
video.
    Mr. McNerney. Well, it did. It said a lot to us on the 
panel to hear them. Anyway, I yield back. Thank you for your 
testimony.
    Mr. Runyan. Thank you, gentlemen. Mr. Walz has nothing, and 
Justice Kasold, thank you.
    Chief Justice Kasold. All right. And if we can get support 
on the other three provisions we've talked about, we would be 
grateful.
    Mr. Runyan. Okay. Thank you.
    Chief Justice Kasold. Thank you very much.
    Mr. Runyan. On behalf of the Subcommittee, thank you for 
your testimony, and you are now excused.
    I finally would like to invite the final panel to the 
table. First we have Mr. Raymond Kelley, the National 
Legislative Director for the Veterans of Foreign Wars and next 
we'll have Ms. Verna Jones, Director, National Veterans and 
Rehabilitation Commission for the American Legion.
    Mr. Kelley, we will start with you. You are now recognized 
from your statement.

STATEMENT OF RAYMOND C. KELLEY, DIRECTOR, NATIONAL LEGISLATIVE 
 SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED STATES; VERNA 
 JONES, DIRECTOR, NATIONAL VETERANS AFFAIRS AND REHABILITATION 
                  COMMISSION, AMERICAN LEGION

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Thank you, Mr. Chairman. On behalf of the two 
million members of the Veterans of Foreign Wars in our 
auxiliary, thank you for the opportunity to testify today.
    The VFW supports the provisions in H.R. 4142 and 4114 that 
would authorize COLA increase at this year December for 
disability compensation and DIC.
    We also support taking--H.R. 4142 taking a perfunctory step 
out of each year, putting a bill in to authorize the COLA 
increase. So we support both of those provisions.
    However, we do reject the provisions that would round down 
the COLA for each time. I look at that the same way as if I 
went to buy lunch today, and my bill was $9.50, and I gave the 
cashier a $10 bill and she didn't give me my 50 cents back. I 
wouldn't want to shop there anymore. That's wrong. I know it 
seems like pennies, but it's the fundamental principal of the 
issue.
    So I ask that when this provision expires in 2013, that you 
allow it to lapse, and provide veterans the money that they 
deserve.
    We support H.R. 2051, the Veterans Missing in America Act. 
The Missing in America Project has--needs to be recognized. 
They've done great work, and a lot of dedication to make sure 
that the remains of veterans have a final resting place.
    Currently VA and them worked together in an ad hoc 
relationship. This will formalize that relationship and make 
the process a little bit smoother and more effective, and 
ensure that our veterans are provided a level of remembrance 
and respect that they deserve.
    We also support H.R. 2498, the Veterans Day Moment of 
Silence Act. For years, the veterans community has complained 
and rightfully so, that Veterans Day has turned to nothing more 
than a day to go buy something at the store because there's a 
sale. Ninety-nine percent of the population is becoming less 
connected with our veterans population. Taking two minutes out 
of the day once a year to reflect on our veterans and our 
servicemembers is the right thing to do and we fully support 
that bill.
    The VFR supports the intent of H.R. 2377, the RAPID Claims 
Act, but most of these provisions are already being done by a 
directive through VA that was authorized through Public Law 
110-389. We believe that they're going in the right direction. 
Our fear is if you put this into statute right now, before we 
have a chance to see how effective it is, that once we have it 
cemented in statute, if there's issues with those provisions, 
that we're going to go back and statutorily fix those.
    I do advise us to go back and take a look at how effective 
it's been. We've had it for about a year and a half now. It's 
probably time to go back and look and see how well--how they're 
doing on these RAPID claims. If they're doing great, let's go 
ahead and put it in statute. If there's things that need to be 
repaired, let's repair it before we do that.
    The VFW supports the provision within H.R. 2717 that would 
direct the Secretary to designate an American World War II city 
every year. Again, going--reflecting back on the service and 
commitment of our servicemembers, and the servicing commitment 
of the American citizens during World War II, it's the proper 
thing to do to recognize that. But we also believe that it 
should be done through that competitive process. Therefore, we 
can't support the provision that would go ahead and mandate 
through this act who the first recipient of that would be.
    VFW supports H.R. 4168, the Caring for Our Fallen Heroes 
Act. VFW Post 2485 has been taking care of that for 18 years 
with no funding from the Federal government. As Secretary 
Cleland explained, it's in disrepair. You can say what the VFW 
is doing is maintaining the cemetery in a state of arrested 
decay. It needs help, it needs work, it needs the intervention 
of the Federal government.
    We believe that the Battle Monuments Commission would be 
the best served to do that. They have another battle monument 
70 miles south of this facility. Yeah, we need to work out the 
issues with the State Department, we need to work out the 
funding issue. There is a lot more funding that needs to go 
into that. An average of 12 inches of ash, soft ash, so there's 
grass on it--if you look at it from a distance it looks fine. 
But you go up to it, and you start walking on that, the ground 
sinks. VFW members have had to dig out in front of those 
graves, so you can read the full head stone. It'll have the 
name, and maybe their service, but the rest of the information 
is missing. They've had to dig that out so you can stand there 
and look down into a whole and get the full story of each one 
of those veterans.
    It's time that we act. We believe that the Battle Monuments 
Commission is the best served to do that.
    And VFW does not hold a position on H.R. 2413. I'll look 
forward to any questions that you or the Committee has. Thank 
you for the opportunity to testify.

    [The prepared statement of Raymond Kelley appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Kelley. Ms. Jones.

                    STATEMENT OF VERNA JONES

    Ms. Jones. Chairman Runyan, Ranking Member McNerney, and 
distinguished Members of the Subcommittee, thank you for this 
opportunity for the American Legion to present our views on the 
legislation being considered here today.
    We appreciate the efforts of this Subcommittee to address 
the different needs of the men and women who are currently 
served and those who have served in past conflicts.
    H.R. 4114, H.R. 4142, the American Legion supports a one 
time COLA increase this year, as we have in past years, that 
has been passed. We must ensure veterans are getting some 
relief from rising costs; however, before long term measures 
are considered, we ask Congress to reflect on the unique 
considerations of those disabled in our Nation's service merit.
    While 4142 is an admirable intent, the American Legion 
wants to make sure that this is unique to veterans, and not 
lumped into social security or another group, and unique 
considerations of veterans does not get lost. While we support 
4114, the American Legion cannot support H.R. 4142 as written.
    H.R. 2498, Veterans Day, a Moment of Silence. The American 
Legion is deeply committed to fostering the spirit of American 
patriotism, and dedication to men and women who've served this 
Nation in times of war, and in times of peace and prosperity.
    While the American Legion works towards an America where 
all citizens will stop and reflect on a daily basis of the 
service and sacrifice of our Nation's veterans, this purpose 
not be the enemy of good notion presented here in this 
legislation, we whole-heartedly support the attempts to 
increase our country's reflection on those who have gone into 
battle for this great Nation. The American Legion supports this 
bill.
    H.R. 2377, Rapid Claims Act. While the American Legion 
supports the intent of this bill, and you know, the VA's 
already doing this. We--the American Legion supports the fast 
track of claims, which are presently--which are presented fully 
developed to expedite service for veterans whose claims do not 
require a lot of development or extensive legal work and 
research, above and beyond the material that's already 
presented by the veteran.
    We question the necessity of the impact of additional 
legislation to achieve this goal. The VA has already initiated 
the most important aspects of this bill by their own rights. 
Additional legislation may impact the delivery of the service, 
causing an unnecessary ripple in the process already.
    So we think that they're already doing what they need to 
do, and as written, we do not support this bill.
    The Missing In America project, we'd like to thank the 
Chairman and the Committee for the inclusion--for the inclusion 
at all hearings of a chair to call attention to the America POW 
and MIAs. We cannot forget these Americans who are still 
missing and left behind, yet the work of the Missing in America 
project is important, because we cannot forget those Americans 
who still remain missing at home within our home country.
    So the American Legion certainly supports this bill.
    H.R. 4213, the primary concern in staffing the Court should 
be given the best possible judges to fill the benches, and 
assure these benches stay filled with competent productive 
judges.
    As an outside prospectives from regions outside the inner 
circle, the D.C. beltway, could even be productive. The 
American Legion remains dedicated to having the absolute best 
possible candidates on the bench of CAVC to rule justly over 
the cases of the veterans who pursue their claims to this 
level, and the modern technological electronic world, geography 
simply does not represent the challenge that it once did, and 
the quality of the applicant is far more important in this 
criteria. So the American Legion does not support this bill.
    The American Legion appreciates the opportunity to comment 
on the bills considered by the Subcommittee. Thank you for 
hearing us.

    [The prepared statement of Verna Jones appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Jones. Pertaining to 4142, the 
long term fix of the COLA, what are those unique considerations 
that you're referring to?
    Ms. Jones. Well, we just want to make sure that the 
veterans aren't lumped into one--you know, that these things 
are being considered, the veterans have unique needs, that it's 
not just social security, like with social security or other 
groups. That we don't lose those considerations of veterans. 
The veterans need different things, that veterans have unique 
needs, like veterans who have disabilities.
    When we talk about how COLA is, how it's considered, or how 
it's changed every year, we want to make sure these veterans 
get exactly what they're supposed to be getting. And I can 
provide you with a more in-depth answer to this in writing.
    Mr. Runyan. I would appreciate that.
    Ms. Jones. Thank you.
    Mr. Runyan. You know, there's a lot we do, and this is just 
to keep up with the cost of living truthfully. Obviously, you 
know, and it does adjust, you know, when we take care of them 
medically and all that kind of stuff, and this is to keep up 
with everything else around them, keeping up with that, so the 
specifics of that would be greatly appreciated.
    Ms. Jones. I understand. We'll submit that.
    Mr. Runyan. I have a question for Mr. Kelley dealing with 
the RAPID Claims Act, and I think Congressman Donnelly also 
stated in his statement a lot of the same concerns that both of 
you had. But is there anything new we can put in, a directive 
that would help the previous pilot program that you have come 
across?
    Mr. Kelley. I'll get back with you on the record. We've got 
people that are working with VA on these RAPID claims to make 
sure that they're operating right. And when I get back to the 
office, I'll touch base with them, and make sure I give you a 
complete answer. I'd like to follow-up with that.
    Mr. Runyan. And has the VFW had any thought dealing with 
the American World War II City, Bill 2717, I know the Ranking 
Member kind of said it too, it's kind of a clean slate. Any 
thoughts about the competitive process, how we would actually 
designate those cities?
    Mr. Kelley. I think the history that they provided back in 
the `40s, and then their commitment to keep people aware of 
that commitment. However that metric is put together, I haven't 
put a whole lot of thought, but those two components of yeah, 
they did a lot for our Nation during a period of time, but 
they've spent the rest of the time reminding America that that 
has been their history. I think those are the two main 
components, however that metric is put together, and the 
Secretary can choose from that.
    Mr. Runyan. And in your experience also, having--the states 
that have passed, this is dealing with 2051, the Veterans 
Missing in America Act, and possibly both of you to comment on 
this. With the states that have passed similar legislation, 
have you received positive feedback on the implementation of 
the process?
    Mr. Kelley. The VFW, I have not received any feedback, 
other than from the funeral directors who seem very, very happy 
with the process. I've not heard back from the veterans' 
community, but the folks who are caring for the remains until 
the VA or until MIAP takes care of them, are happy with the 
procedure and would like to see it expanded.
    Mr. Runyan. Ms. Jones?
    Ms. Jones. Many American Legion members volunteer with the 
Missing in America Project, and the American Legion has long 
worked closely with this organization and supported their 
efforts. Increasing the governmental role in supporting this 
worthy task, we think is important. And the work began by 
Missing in America Project, it is only in the beginning stages. 
While the work of the volunteers are strong, and will continue 
with the same fervor, I think adding the departmental help of 
the VA, can help increase the scope which this mission has 
carried out nationally.
    So the American Legion, our volunteers, think it's a 
wonderful program.
    Mr. Runyan. Thank you for that because my personal 
experience with it, and many members of both your organizations 
I see all the time, when they have the video of remains stuck 
in a closet, that is a disturbing. And, you know, it is just 
something that really needs to be addressed.
    With that, I'll yield to the Ranking Member, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. I think your 
testimonies were pretty clear. There's not that much in the way 
of questions I have about where your positions are in these 
things.
    The Missing in America Act, certainly the intent is good. 
My concern is with how we're going to carry that out on a way 
that's fair, and it doesn't give a non-veteran benefits that 
they haven't earned. So maybe we can work out some details on 
that. But I'd like to make sure that there's a clear 
understanding of what's involved before I get my full support 
behind that one.
    Similarly with H.R. 4168, Clark Air Force Base, the 
cemetery there, there's some very big challenges in terms of 
just getting the right to do that on Philippine land, and I'm 
sure that we can work together one way or another to see that 
that happens, without trying to force a bill that's 
unenforceable. Because that would be more problematic I think.
    I also like your comment, Ms. Jones, about preserving the 
uniqueness of the vets on the COLAs. As a jurisdictional 
matter, I hate to cede jurisdiction to the Administration. 
Giving us the ability to make decisions working with Veterans 
groups and the VA, I think is going to be the most beneficial 
approach. So those are my comments, if you have any follow-up 
comments, I'd appreciate that. Otherwise, I yield back.
    All right. Thank you.
    Mr. Runyan. I thank the gentleman, and having no further 
questions, on behalf of the Subcommittee, thank you both for 
your testimony. I look forward to working with everybody that 
testified today on trying to get the best piece of legislation 
to truly take care and honor our fallen and our current 
veterans that we possibly can.
    So with that being said, both of you are excused. Thank you 
again.
    I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks, and 
include extraneous material.
    Hearing no objection, so ordered.
    I thank the Members for their attendance today and this 
hearing is now adjourned.

    [Whereupon, at 12:42 p.m. the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good morning. This legislative hearing on H.R. 4142, H.R. 4114, 
H.R. 4213, H.R. 2051, H.R. 2498, H.R. 2377, H.R. 2717, and H.R. 4168 
will now come to order.
    Today we have large number of witnesses present due to the high 
level of interest in some of the bills before us. Therefore, in the 
interest of time, I am going to forgo a lengthy opening statement and 
just briefly touch on three bills on today's agenda which I have 
introduced.
    H.R. 4114, the Veterans Compensation COLA Act of 2012 provides a 
cost of living adjustment increase to veterans' disability compensation 
rates and other benefits.
    H.R. 4142 is the American Heroes COLA Act, which is related to the 
aforementioned COLA act of 2012, except this bill seeks to make 
permanent the annual increase to veterans' disability compensation 
rates and other benefits by tying the increase to the cost of living 
adjustments for social security benefits.
    With the passage of the America Heroes COLA Act, veterans will 
never again have to depend on Congressional action to receive an 
increase to the cost of living adjustment they have earned through 
their service. Instead, these increases will become automatic from year 
to year just as Social Security benefits increases are adjusted 
automatically every year.
    The final bill I have sponsored is H.R. 4213, the United States 
Court of Appeals for Veterans Claims Residency bill. This piece of 
legislation requires judges sitting on the United States Court of 
Appeals for Veterans Claims to reside within fifty miles of the 
District of Columbia.
    This bill will ensure a more efficiently run Court of Appeals for 
Veterans Claims by requiring judges to fully engage in their caseload 
and manage their offices by maintaining a household reasonably close to 
their work location. This will have the desired effect of ensuring 
veterans receive justice without unneeded delay due to the extended 
commute of Federal judges.
    Again, in the interest of time, I would like to reiterate my 
request that today's witnesses abide by the decorum and rules of this 
hearing and to summarize your statement to five minutes or less during 
oral testimony. We have a large number of individuals ready to testify 
on legislation today, and I want to make sure everyone is heard in a 
timely manner. I would also remind all present that, without any 
objection, your written testimony will be made part of the hearing 
record.
    I appreciate everyone's attendance at this hearing and I would now 
call on the Ranking Member for his opening statement.

                                 <F-dash>
              Prepared Statement of Hon. Jerry McNerney, 
                       Ranking Democratic Member
    Thank you Mr. Chairman.

    The purpose of today's hearing will be to explore the policy 
implications of eight bills, ranging on issues as varied as the 
disability compensation COLA to the residency requirements of the 
judges of the Court of Appeals for Veterans Claims. The bill numbers 
are H.R. 2051, H.R.2377, H.R. 2498, H.R. 2717, H.R. 4114, H.R. 4142, 
H.R. 4168, and H.R. 4213.
    I support several of these bills, especially the disability 
compensation COLA offered by you Mr. Chairman--I am glad to be a 
cosponsor of that bill, H.R. 4114. I also want to thank the Chairman 
for his support of two bills that I introduced this morning that would 
extend the temporary residence adaptation grant as well as the VA work-
study program.
    I am encouraged by the Veterans Day Moment of Silence measure 
offered by Mr. Frank of Massachusetts, and the American World War II 
City bill, offered by Mr. McIntyre of North Carolina.
    I think that all of the bills before us today are worthy of 
consideration by this Subcommittee.
    However, I have reservations with some of the measures because they 
are duplicative or unnecessary, and hopefully this hearing helps to 
address some of those issues.
    The Veterans Missing in America Act, H.R. 2051, sponsored by Mr. 
Tiberi is a good and well-meaning measure. This bill has support from 
some VSOs, but the VA has expressed some reservations, such as the 
unintended consequence of confusion and uncertainty in benefits it may 
create for veterans and non-veterans alike. I look forward to further 
delving into this issue.
    I also took note of the possible duplication and confusion concerns 
raised by the VA and the VSO witnesses regarding provisions of the 
RAPID Claims Act, H.R. 2377. They noted that it might also thwart 
efforts already underway in a provision already enacted into law in 
P.L. 110-389, the Veterans Benefits Improvement Act. I hope that we 
will gain additional insight on these concerns today.
    I look forward to hearing more about H.R. 4168, introduced by 
Congressman Guinta, which would direct the ABMC to maintain Clark 
Veterans Cemetery in the Philippines. I believe proper justification, 
including diplomatic inputs, is needed to decide this issue. While we 
discussed this topic briefly at our last hearing on cemeteries, the 
ABMC implied that it had serious reservations with this directive. I 
think we must all work together to properly honor and remember those 
individuals who are laid to rest at Clark Veterans Cemetery.
    I'm looking forward to hearing more about the CAVC residency bill, 
H.R. 4213, also sponsored by you Mr. Chairman, which would require CAVC 
judges to live within 50 miles of Washington D.C. I concur with the 
stakeholders that there are probably better requirements upon which to 
base qualification to or service on this Article I Court, especially 
given the advent of modern technological capabilities. At the very 
least the distance limitation should be rethought.
    I thank all the Members for their thoughtful legislation.
    And, I thank our other esteemed witnesses for joining us today and 
look forward to receiving their testimonies.
    Thank you and I yield back.

                                 <F-dash>
 Prepared Statement of Hon. Frank Guinta, U.S. House of Representative 
                                (NH-01)
    Good morning Chairman Runyon, Ranking Member McNerney, and 
distinguished Members of this Subcommittee. Thank you for the 
opportunity to testify on H.R. 4168, the Caring for the Fallen Act of 
2012.
    Let me begin with a question: Say a cemetery in your hometown was 
overgrown with weeds, abused by vandals and littered with dumped trash. 
And say that same cemetery contained the graves of hundreds of U.S. 
Armed Service members stretching back for a century. What would the 
people of your hometown say about it?
    Phones in my hometown of Manchester, New Hampshire would be ringing 
off the hook. Hundreds of outraged veterans and their families would 
demand immediate action. That would likely be the reaction in your 
town, too.
    But sadly, there are no outraged calls coming on behalf of Clark 
Veterans Cemetery in the Philippines. Left on its own for several years 
when the U.S. military was withdrawn from the area around it in 1991, 
it quickly fell into an appalling state of decline. ``Out of sight, out 
of mind,'' the saying goes. And that's just what happened. It soon 
acquired the shameful nickname ``the Cemetery America Forgot.''
    The 2,200 U.S. veterans interred within Clark Veterans Cemetery 
deserve better. They answered when America called them; now we have it 
within our ability to answer when their resting place calls out for our 
attention.
    H.R. 4168, the Caring for the Fallen Act of 2012, is simple and to 
the point. It designates the American Battlefields Monuments Commission 
(ABMC) with the responsibility of caring for the cemetery, and 
authorizes it to make necessary arrangements to ensure its on-going 
maintenance. This legislation is budget neutral, with the ABMC paying 
for that maintenance through existing appropriations.
    I'm grateful Representative Bill Owens, an Air Force veteran, is 
lead Democratic co-sponsor of the Caring for the Fallen Act. It's a 
reminder that Members can remove partisan labels and work side-by-side 
to honor those who wore our country's uniform. I'm also honored that 
this bill has the support of the Military Officers Association of 
America and the Air Force Sergeant's Association.
    When visitors enter Clark Veterans Cemetery, they pass through a 
gate inscribed with the words ``Served with Honor.'' Now it's time 
Americans honor that service by restoring the dignity these brave men 
and women so richly deserve.
    I'm happy to answer any questions you may have about this bill. 
Thank you for your time.

                                 <F-dash>
Prepared Statement of Hon. Mike McIntyre, U.S. House of Representative 
                                (NC-07)
    Chairman Runyan, Ranking Member McNerney, and Members of the 
Committee:
    I am pleased to appear today before the House Veterans' Affairs 
Subcommittee on Disability and Memorial Affairs to testify on behalf of 
H.R. 2717, a bill I have introduced to direct the Secretary of Veterans 
Affairs to designate one city in the United States annually as an 
``American World War II City.''
    As we all know, it was just a day after Japan attacked Pearl Harbor 
on December 7, 1941, that the United States entered World War II. In 
the end, the conflict took more lives and destroyed more land and 
property around the globe than any previous war.
    The main contributions of the United States to the Allied war 
effort comprised of money, industrial output, food, petroleum, 
technological innovation, and of course, servicemembers, especially 
during 1944-1945. In fact, by the end of World War II, sixteen million 
Americans had served in the conflict and more than 400,000 had been 
killed.
    Here at home, the wartime efforts of America's cities was apparent 
as Americans tolerated additional work, rationing, and a diminished 
quality of life because of their patriotism and the confidence that 
life would return to normal as soon as the war was won. Many cities 
based and trained our military services, dispatched their sons and 
daughters to fight in the war, assist with the transport of goods, or 
equip those serving.
    And, in some cities, like Wilmington, North Carolina, there were 
additional wartime efforts. For example, the North Carolina 
Shipbuilding Company of Wilmington, the state's largest employer at 
that time, constructed 243 cargo vessels with which to provide goods 
and equipment to our soldiers. Additionally, Wilmington provided the 
Atlantic Coast Line Railroad headquarters, three housing camps for 
German prisoners of war, a major training base for P-47 fighters, 
defense industries producing goods and equipment, a British patrol 
base, and a shipping point for Lend Lease supplies to the Allies.
    I could go on and on. Mr. Chairman, there are countless cities 
across this great nation that contributed to World War II efforts in 
more ways than one. Now, with so many members of ``The Greatest 
Generation'' passing on, it is time to recognize these contributions 
before it is too late and the lasting memories of the war continue to 
fade.
    The bill I have introduced will do just this by directing the 
Veterans' Affairs secretary to designate one city in the United States 
each year as an ``American World War II City'' based on contributions 
to the war effort during World War II and efforts to preserve the 
history of such contributions, including the preservation of 
organizations or museums, restoration of World War II facilities, and 
recognition of World War II veterans, with Wilmington being the first 
one so designated, with others that may readily qualify to be allowed 
this special designation.
    There are many unique cities throughout the nation that fit these 
criteria. Therefore, I respectfully request your support of H.R. 2717 
which will ensure that they are appropriately granted the title of an 
``American World War II City.''
    And, I am honored that my good friend, author and historian, Capt. 
Wilbur Jones of Wilmington, N.C., will be testifying before you in the 
next panel.

                                 <F-dash>
                Prepared Statement of Hon. Joe Donnelly
    Chairman Runyan and Ranking Member McNerney, members of the 
subcommittee, thank you for the opportunity to discuss my bill before 
the DAMA Subcommittee today.
    After closely working with the Iraq and Afghanistan Veterans of 
America and the Disabled American Veterans last Congress, I have 
reintroduced H.R. 2377, The Rating and Processing Individuals' 
Disability (RAPID) Claims Act, along with Rep. Geoff Davis of Kentucky. 
The bill currently has 31 bipartisan cosponsors, and it received 105 
cosponsors last Congress.
    The goal of The RAPID Claims Act is to improve the disability 
claims process for our nation's veterans, something we all agree is 
necessary. In 2008, Congress passed The Veterans' Benefits Improvement 
Act (P.L. 110-389). Included in the bill was the Fully Developed Claim 
(FDC) pilot program, which allows veterans filing fully developed 
claims to waive the lengthy development period and receive expedited 
consideration. FDC was originally a one-year pilot program conducted at 
ten VA Regional Offices, and, due to its success, VA announced that it 
would implement the program nationwide.
    I support VA's decision to rollout this program nationwide; 
however, I would like to see FDC become law with a couple small 
improvements. The RAPID Claims Act would codify FDC while also 
modifying it to protect a veteran's effective date for disability 
compensation and ensuring a veteran who mistakenly files an 
unsubstantially complete claim in FDC is given fair notice what further 
evidence is needed to complete the claim.
    When participating in the normal claims process, a veteran can 
submit a claim at any time--marking the claim's effective date--and the 
veteran still has up to a year to gather evidence. However, a veteran 
seeking to participate in FDC may gather evidence independently, 
preventing an establishment of an effective date for that veteran's 
disability compensation. This evidence period can take months or up to 
a year, costing a veteran hundreds or even thousands of dollars in 
missed benefits. The RAPID Claims Act would allow a veteran gathering 
evidence for a fully developed claim to mark an effective date for his 
or her compensation by notifying VA that a fully developed claim is 
forthcoming. Marking this effective would help ensure that the 
veteran's compensation is made retroactive to an appropriate date.
    Additionally, some veterans will submit claims through FDC that VA 
will decide do not qualify for the program for a number of reasons, 
including missing evidence. If VA determines that a claim submitted 
through FDC is ineligible, I am concerned VA may not immediately notify 
the veteran of what is needed to substantiate the claim. If VA 
processes the claim before notifying the veteran, this could lead to 
incomplete and unsatisfactory results for the veteran, causing more 
appeals and longer processing periods for veterans. The RAPID Claims 
Act would modify FDC to require VA to notify and assist the veteran to 
help substantiate such claims.
    Finally, The RAPID Claims Act also has a provision targeted at the 
appeals process. The bill would require that the VA Appeals form is 
included with the Notice of Decision letter, instead of waiting for a 
veteran to exercise his or her appeal rights before sending the form to 
the veteran. I believe this is a simple courtesy VA could extend to our 
nation's veterans.
    Once again, thank you Chairman Runyan, Ranking Member McNerney, and 
my subcommittee colleagues for the opportunity today to highlight what 
I feel are simple solutions to help improve the disability claims 
process for our veterans. While we have achieved much on behalf of our 
veterans in recent years, I think we all agree further steps are needed 
to reduce the wait times faced by veterans and to simplify the process. 
Thank you.

                                 <F-dash>
                 Prepared Statement of Col. Thomas Moe
    Chairman Runyan, Ranking Member McNerney, thank you for the 
opportunity to testify in support of H.R. 2051, the Veterans Missing in 
America Act of 2011, sponsored by Representatives Patrick Tiberi and 
Steve Stivers.
    At funeral homes and other entities across the country, an unknown 
number of veterans' remains have been abandoned or unclaimed for a 
number of reasons. In response to this tragic situation, a handful of 
veteran service volunteers began the Missing in America Project. When 
individuals pass away, and there is no next of kin identified, their 
remains may stay at a funeral home indefinitely without anyone laying 
them to rest.
    The Missing in America Project aims to identify veterans among 
those unclaimed remains and provide a funeral and burial. Sometimes 
these dedicated volunteers run into legal obstacles as they pursue this 
noble cause. H. R. 2051 serves to remove those obstacles so that these 
military veterans might receive the respect they have earned and a 
proper burial.
    As Director of the Ohio Department of Veterans Services, I am 
pleased and honored to represent a state that has already taken action 
on this issue. The Ohio General Assembly passed the state equivalent of 
this bill which became law in 2010.
    It provides an exception to the next-of-kin law so that the 
Secretary of the U. S. Department of Veterans Affairs, the ``VA,'' is 
granted authority to determine if unidentified remains in funeral homes 
and hospitals across Ohio are those of a veteran. If so, the VA may 
take disposition of the remains. The first burial of such veterans in 
Ohio under the Missing in America Project will take place this May at 
the National Cemetery in Dayton.
    It is our hope that other states will pass their own legislation to 
address issues that are outside Federal jurisdiction. Although we have 
made progress in Ohio, there is still much to be accomplished on the 
Federal level. H.R. 2051 addresses issues that fall under Federal 
jurisdiction regarding veterans who are ``Missing in America.''
    This legislation recognizes the work and dedication of the Missing 
in America Project, in cooperation with numerous veterans service 
organizations, in identifying unclaimed remains of our veterans. It 
also directs the VA Secretary to work with veterans service 
organizations to assist entities in identifying veterans eligible for 
burial in a national cemetery.
    The VA will cover the cost of those burials if there is no next of 
kin and there are no resources available to cover burial and funeral 
expenses. Finally, this legislation directs the VA Secretary to 
establish a publicly accessible database of the names of any veteran or 
other individual so identified.
    I am proud to say that the National Association of State Directors 
of Veterans Affairs has recently expressed support of the Missing in 
America project and has urged our Nation's leaders to take action. 
Additionally, H.R. 2051 has the support of the National Funeral 
Directors Association, the American Legion.
    As a former member of the military who was listed as Missing in 
Action in Vietnam, this bill brings to mind my own family's challenge 
of having to deal with the uncertainty of my whereabouts and fate.
    My wife, military comrades and our country made every effort to 
determine my fate and those of my mates and finally to return me and my 
comrades to our families. Just as our Nation is committed to finding 
and repatriating our troops who go Missing in Action on foreign soil, I 
hope that you will join me and Representative Tiberi to find and honor 
those who are still missing--but in our own homeland, America.

                                 <F-dash>
     Prepared Statement of Capt. Wilbur D. Jones, Jr., USNR (Ret.)
    MR. CHAIRMAN:

    Thank you for giving me the honor and privilege to appear before 
your subcommittee today to testify on H.R. 2717, a Bill introduced by 
my Congressman, Mike McIntyre of North Carolina, which would ``direct 
the Secretary of Veterans Affairs to designate one city in the United 
States each year as an `American World War II City,' and for other 
purposes,'' including the designation of my hometown, Wilmington, North 
Carolina, as the first to be so designated and honored.
    I am a retired Navy captain, military historian, author of 17 
books, a Wilmington native who grew up there during the war, and 
chairman of the all-volunteer, 501(c)(3) World War II Wilmington Home 
Front Heritage Coalition, whose mission is to identify, preserve, and 
interpret the rich WWII legacy of Wilmington and Southeastern North 
Carolina.
    Sixty-seven years after the end of World War II, Wilmington is the 
only city of which I am aware that can claim the title of ``America's 
World War II City,'' a title proclaimed by our local elected officials 
and Congressman McIntyre.
    Now we seek national recognition as the first ``American World War 
II City'' for both our region's mighty contributions to the war effort, 
and our amazing accomplishments in preserving our history since then. 
We are totally confident we exceed the H.R. 2717 criteria required for 
such designation, which we present in the following narrative as the 
Coalition's Thirteenth Year Progress Report, 2000-2012.
    But H.R. 2717 reaches beyond just designating Wilmington as the 
first ``WWII City.'' Most importantly, it establishes a process within 
the Federal Government to allow ALL cities with significant WWII 
history to vie for this designation - a major step in the continuing 
preservation of our national heritage, and long overdue before sites 
disappear, memories fade, artifacts are lost, and participants die.
    On behalf of Wilmington, New Hanover County, and the State of North 
Carolina, I strongly urge passage of H.R. 2717, and immediate liaison 
with the Senate on a companion bill to be resolved for the President's 
signature during this Session of Congress.

                                 - o -

                        World War II Wilmington 
                     Home Front Heritage Coalition
          Thirteenth Year Progress Report, 2000 to March 2012
        National Recognition as ``America's World War II City''
    Following proclamations in 2008 by the Wilmington, North Carolina, 
City Council and New Hanover County Commissioners, Wilmington proudly 
claims this title. To our knowledge, no other city makes this claim 
after 67 years since the war ended. The claim is based on our region's 
vast contributions to the war effort, varied war industries, all five 
armed forces based here, its strategic location, and the record of its 
residents serving in uniform. Additionally significant is our success 
in preserving this WWII history. In both 2008 and 2011, our 
Congressman, Rep. Mike McIntyre (7th District, N. C.), inserted a 
``WWII City'' proclamation in the Congressional Record. Now we seek 
national recognition.
    Of note: The president of the National Trust for Historic 
Preservation wrote Congressman McIntyre on May 10, 2011, praising 
``Wilmington's extraordinary role in the Second World War and its 
equally impressive accomplishments in preserving and interpreting that 
history. We fully support the efforts of the World War II Wilmington 
Home Front Heritage Coalition to obtain national recognition....''
              H.R. 2717 - Authored by Congressman McIntyre
    In 2011 Congressman McIntyre introduced legislation in the U.S. 
House of Representatives (H.R. 2717) to establish a process within the 
Department of Veterans Affairs to designate cities as an ``American 
World War II City,'' with Wilmington being designated as the first to 
receive this honor. The criteria are: what did your city do to support 
the war effort, and what are your efforts to preserve that history?
    In March 2012 the bill has 36 House co-sponsors. Congressman 
McIntyre's staff is working with the staffs of North Carolina Senators 
Richard Burr and Kay Hagan to develop a companion bill in the Senate.
    H.R. 2717 resulted after attempts by the Congressman and the 
Coalition to identify national organizations in a position to grant 
Wilmington alone as ``America's WWII City.'' None, such as the National 
Trust, Smithsonian Institution, National USO Headquarters, and the 
American Battle Monuments Commission, has the authority. So, federal 
legislation appeared to be the solution.
                      Coalition Mission Statement
    The World War II Wilmington Home Front Heritage Coalition is an 
all-volunteer, 501(c)(3) corporation of organizations, agencies, and 
individuals collectively supporting our efforts to identify, preserve, 
and interpret the rich WWII history of Wilmington and Southeastern 
North Carolina. The Coalition is the catalyst for developing and 
leading such preservation efforts. The emphasis is on New Hanover 
County, which then was the region's economic, industrial, financial, 
business, social, and entertainment hub.
    The Coalition operates and is administered within its By-Laws. 
Directors meet annually in the spring.
                      Coalition Board of Directors
    Chairman/President--Captain Wilbur D. Jones, Jr., USNR (Ret.)
    Vice Chairman/Vice President--Doris G. Ayers
    Treasurer--Jennifer H. Presnell, CPA
    Counsel--Algernon L. Butler III
    Secretary--Katherine H. Rudeseal
    Leo Bednarczyk, Jean Lawler, John H. Meyer
                          Coalition Supporters
    Coalition Supporters, such as the evolving partial list on our 
letterhead, are organizations and individuals who help us accomplish 
our mission. Their support includes recognition, advisory, financial, 
government relations, project-related, public relations-related, and 
endorsements, and as volunteers. No ``membership responsibilities'' are 
asked - no dues, no meetings, no elections, no surveys, no obligations 
- only support.
                                 - o -
                    H.R. 2717 Criterion Sec. 2(b)(1)
    During WWII, Wilmington and Southeastern North Carolina fully 
exceeded this criterion, as follows:
  Official Wartime Designation: ``The Defense Capital of the State'' 
             aka: ``The Country's Unique Wartime Boomtown''
Strategic Location Vulnerable:
    Until 1944, government told citizens to fear German sea or air 
attack; civilian defense drills - blackouts, air raids; rationing, food 
shortages; U-boats ravaged off coast; one fired on Ethyl-Dow Chemical 
plant at Kure Beach July 1943, possibly the only German attack on the 
U.S.
All 5 Armed Forces here or close by:
        Army - Camp Davis on U.S. 17 at Holly Ridge, anti-aircraft 
artillery training base; Fort Fisher advanced training base
        Navy - Anti-submarine warfare (ASW) patrol craft at nearby 
Southport and along Cape Fear River
        Army Air Forces - Bluethenthal Army Air Base (now ILM), ASW 
base then P-47 Thunderbolt fighter training field
        Marine Corps - Camp Lejeune at Jacksonville; Air Station at New 
River
        Coast Guard - Patrol craft bases at Wrightsville Beach 
(Intracoastal Waterway), Southport area, and Wilmington
        Also British ASW vessels visited and operated from here
North Carolina Shipbuilding Company, 1941-46:
    Brand-new shipyard constructed in 1941, built 243 Liberty and C-2 
hulls constructed for Navy and Maritime Commission; state's largest 
employer: 23,000 employees at height in late 1943, ca. 20% black, 20% 
women
Defense Industries:
    Fertilizer plants, pulpwood, Block's Shirt Factory (1 million 
shirts for armed forces), numerous small manufacturing, creosote 
products, bromine (Ethyl-Dow), truck-farming, dairies, small ship/craft 
repair works, concrete floating drydock manufacturing
Public Housing:
    5,495 units constructed (federal/local) in 7 housing projects (some 
still in use).
Total Manufacturing:
    110 establishments employing 28,000 men and 6,000 women; retail 
trade area extended 75 miles inland reaching 275,000 population
Principal N. C. State Port:
    Along Cape Fear River, principally downtown docks; ``Lend-Lease'' 
shipments to the United Kingdom/Soviet Union; petroleum imports center
Atlantic Coast Line Railroad Headquarters and Terminal:
    A principal RR in the Southeastern U.S.; transported war material 
and troops; also served by Seaboard Airline RR.
3 Prisoner of War Camps:
    From Feb. 1944 to April 1946; first one at Shipyard Blvd. and 
Carolina Beach Rd. (historical marker), then moved to Robert Strange 
Park (main camp, 8th & Ann Sts.; historical marker); detachment at 
Bluethenthal Field; maximum 550 German POW's captured from Afrika Korps 
in 1943; caused no trouble, no breakouts, worked dairy and truck farms, 
fertilizer and pulpwood industries.
Armed Forces Service:
    Thousands of area men and women served: bomber and fighter pilots 
and crews; a Tuskegee Airman; P-51 Mustang ace; submarine skipper; Navy 
frogmen and special operations; Marine and Army infantry; Army 
artillery; physicians and nurses; crewmen on destroyers/carriers/
amphibious ships; served in, over, and undersea in Central-Western-
South Pacific, Atlantic, Mediterranean, Europe, North Africa
Deaths in Service:
    191 County men died, plus 57 more with County connection = 248 did 
not come home; three sailors KIA at Pearl Harbor on Dec. 7, 1941; men 
died in combat on Guadalcanal, New Britain, Peleliu, Saipan, New 
Guinea, the Marshalls, Okinawa; in and over Holland, Italy, Sicily, 
North Africa, France, Philippines, Germany, Burma, Belgium, Luxembourg.
Congressional Medals of Honor:
    2 recipients, both graduates of New Hanover High School (Charles 
Murray `38, Army France 1944, and William Halyburton `43, Navy Okinawa 
1945 posthumously) - believed to be only high school in country with 
multiple WWII MoH recipients.
Other Decorations:
    2 Navy pilots awarded Navy Cross for helping to sink Japanese 
carrier at Battle of Midway - one was awarded total of 3 Navy Crosses; 
1 Army Air Forces pilot awarded Distinguished Service Cross for Midway; 
1 Army DSC recipient (posthumously) for Normandy; numerous Silver 
Stars, Bronze Stars, Distinguished Flying Crosses, and Air Medals.
14 County USO Facilities:
    Main location at 2nd & Orange Sts., renovated and restored in 2008 
to wartime appearance.
War Bonds:
    $40 million raised in County in 7 drives.
Population 1940:
    County 43,000; Wilmington 34,000; County late 1943 peak ca. 
100,000; post-war back to pre-war
Biggest Problems:
    No planning: seat-of-the-pants, trial-by-error; housing (many 
private homes rented rooms to workers and military); inadequate 
infrastructure including few main streets/thoroughfares (army 
constructed Shipyard Blvd. and Military Cutoff); problems: food 
shortages, crowded/cramped schools, long lines for restaurants and 
theaters, racial segregation, administering justice, transportation, 
accidents; crime (``sin city'') - murders, rapes, fights, thefts, 
muggings, prostitution, black marketeering, moonshining.
                                 - o -
                    H.R. 2717 Criterion Sec. 2(b)(2)
    Since WWII, really since 1998, Wilmington and SENC have exceeded 
this criterion, as follows:
               Accomplishments Working with the Community
    Since its founding in 2000, following its forerunner organization - 
the highly successful, award-winning 125-event Wartime Wilmington 
Commemoration in 1998-99 - the Coalition has accomplished or 
participated with others in accomplishing numerous projects to preserve 
our region's WWII history. Our primary partners have been the City of 
Wilmington and New Hanover County, and organizations such as the 
Thalian Association, Community Arts Center Accord, New Hanover High 
School Class of 1943, Cape Fear Museum of History and Science, New 
Hanover County Schools, and Community Boys & Girls Club.

    Our major accomplishments include:

    u Working closely with U.S. Rep. Mike McIntyre (in support of H.R. 
2717) and staffs of North Carolina Senators Richard Burr and Kay Hagan 
in 2011-12 to obtain national recognition for Wilmington as the first 
designated ``American World War II City.''
    u Spearheaded Congressional and local city and county governments' 
2008 proclamations of Wilmington as ``America's World War II City.''
    u In 2008, completed the successful 11-year public-private 
partnership project to rededicate the city-owned, renovated and 
restored WWII Hannah Block Historic USO building at Second and Orange 
Streets, also known as the Community Arts Center (HBHUSO/CAC).
    --The lobby area is restored to its wartime appearance and hosts a 
museum of the Southeastern N. C. home front.
    --The building is on the National Register of Historic Places.
    u With the New Hanover County Schools, planned and coordinated the 
70th anniversary celebration (December 16, 2011) of the HBHUSO/CAC - 
school children created the observance through music, drama, dance, and 
decorative skills to a ``Christmas 1944 at the Wilmington USO'' theme.
    u The City Council named the Coalition chairman as the ``history 
representative'' on its HBHUSO/CAC Advisory Board, and gave the 
Coalition de-facto responsibility for the building's preservation.
    u Established and maintained exhibits and artifacts in the HBHUSO/
CAC mini-museum:
    --Numerous wall photomurals and descriptive labels depicting life 
in the Wilmington home front;
    --A memorial to WWII New Hanover County aviators;
    --A mess hall sign painted by German POW's interned here;
    --Exhibits of WWII Army and Marine uniforms and female hostess 
outfit worn at the USO; model of Liberty ship built in Wilmington.
    --Numerous original USO artifacts and reproductions of items sold 
to the servicemen;
    --Installed original and reproduction wartime USO furniture and 
furnishings, such as a newspaper rack with reproduction wartime 
Wilmington Star-News newspapers.
    u Planned, operated, and participated in the 2008 ``Star Spangled 
Weekend'' events which rededicated the renovated and restored HBHUSO/
CAC.
    u Held an HBHUSO/CAC open house and tours during Wilmington's ``Be 
a Tourist in Your Own Home Town'' weekends in 2010-11, and provided 
tours and briefings to other visitors.
    u Designed, published, and distributed throughout Southeastern 
North Carolina and the I-95 welcome centers three editions 
(approximately 100,000 copies) of the popular ``World War II Heritage 
Guide Map of Wilmington and Southeastern North Carolina,'' a self-
guided map for residents and visitors of more than 50 WWII sites.
    u Placed the WWII Heritage Guide Map on the internet on the 
websites of the CAC, Wilmington and Beaches Convention and Visitors 
Bureau, and www.wilburjones.com.
    u Established a Coalition website page: http://wilburjones.com/
world-war-two-wilmington-coalition/
    u Produced two highly successful ``Salute to WWII Veterans 
Jamborees'' (2005, 2009) with nearly 200 veterans and home front 
workers participating, and attended by more than 1,500 persons.
    u With the City, placed marker signs at both the original (Shipyard 
Boulevard and Carolina Beach Road) and main (10th and Ann Streets) 
German POW camps.
    u Requested the City Council (granted) to name its new natural park 
on South 17th Street as the ``William D. Halyburton, Jr., Memorial 
Park,'' honoring the 1943 New Hanover High School (NHHS) graduate and 
Medal of Honor recipient, a navy hospital corpsman killed in action on 
Okinawa. The park was dedicated in 2004.
    u Constructed a masonry monument and garden at NHHS as formal 
recognition for Halyburton and our other WWII Medal of Honor recipient, 
Charles P. Murray, Jr. , awarded for valor in France, 1944. To our 
knowledge, NHHS is the only high school with multiple WWII MOH 
recipients. (Murray died in 2011.)
    --With NHHS class of 1943, produced Wilmington Medal of Honor Day 
to dedicate the memorial.
    u Requested the New Hanover County commissioners (granted) name the 
main thoroughfare street through Veterans Park for Halyburton.
    u Produced and directed annual commemorations of the Japanese 
attack on Pearl Harbor, Hawaii, every December 7, at Battleship Park.
    u Produced and published HBHUSO/CAC welcome brochures.
    u Participated with the Wilmington (Downtown) Rotary Club's 
international project to provide WWII history books and DVD's, archival 
materials, and a computer and software for the Daughters of Our Lady of 
the Sacred Heart convent on Tarawa, Republic of Kiribati.
    u Participated in planning and producing the HBHUSO/CAC's 60th 
anniversary celebration (2001) and USO big-band dances.
    u Hosted 30 children and staff of the Community Boys and Girls Club 
of Wilmington, with snacks, for the movie ``Red Tails,'' about the 
famed Tuskegee Airmen (2012).
    u The Coalition chairman visited the Murray Medal of Honor site in 
Kaysersberg, Alsace, France in 2009 and 2010, and represented the 
Coalition at the Murray funeral visitation in Columbia, SC (August 
2011).
    u While attending the 70th anniversary of the attack on Pearl 
Harbor in 2011, the chairman visited the Halyburton gravesite in the 
National Memorial Cemetery of the Pacific (Punchbowl) in Honolulu, 
along with the USS Arizona and USS Oklahoma memorials which honor two 
of the three Wilmington boys KIA on December 7, 1941: Harvey Howard 
Horrell, and Herbert Franklin Melton.
    u To educate the public and preserve history, the Coalition 
chairman has:
        --Authored two award-winning books on WWII Wilmington and 
Southeastern North Carolina (SENC): A Sentimental Journey: Memoirs of a 
Wartime Boomtown, and its sequel, The Journey Continues: The World War 
II Home Front;
        --For print media and periodicals, he either wrote, or has been 
a principal source for, more than 175 articles, op-ed pieces, features, 
editorials, and letters to the editor on SENC WWII history;
        --For radio and TV media, he has given approximately 100 
interviews on SENC WWII history.
        --Has delivered more than 500 lectures and other presentations 
on WWII history to various groups globally, including schools; mentors 
students; exhibits his boyhood wartime memorabilia collection saved 
while growing up in Wilmington during the war; and leads WWII site 
tours of SENC.
        --In 2006, he received the Award of Merit for his preservation 
achievements from the American Association for State and Local History; 
in 2005, the N. C. Society of Historians named him North Carolina 
Historian of the Year (East).
                                 - o -

     World War II Wilmington Home Front Heritage Coalition Statement of Cash Receipts and Disbursements From
                                         Inception to December 31, 2011
----------------------------------------------------------------------------------------------------------------
                                2001-2007       2008          2009          2010          2011          Total
----------------------------------------------------------------------------------------------------------------
CASH RECEIPTS...............
Contributions                  $ 38,126.78   $ 25,270.33    $ 1,108.00    $ 1,348.00           $ -   $ 65,853.11
----------------------------------------------------------------------------------------------------------------
Interest earned                      39.21             -             -                                     39.21
----------------------------------------------------------------------------------------------------------------
                               $ 38,165.99   $ 25,270.33    $ 1,108.00    $ 1,348.00           $ -   $ 65,892.32
----------------------------------------------------------------------------------------------------------------
CASH DISBURSEMENTS..........
Administrative expenses         $ 2,612.42      $ 878.31      $ 437.75           $ -           $ -    $ 3,928.48
----------------------------------------------------------------------------------------------------------------
Artwork                           1,215.53             -             -             -             -      1,215.53
----------------------------------------------------------------------------------------------------------------
Aviator Memorial                         -             -             -             -         81.99         81.99
----------------------------------------------------------------------------------------------------------------
Bank Fees                           273.68          5.00             -             -             -        278.68
----------------------------------------------------------------------------------------------------------------
Dues                              1,212.66        125.00         25.00         25.00         25.00      1,412.66
----------------------------------------------------------------------------------------------------------------
Meetings & meals                  1,081.44             -             -             -             -      1,081.44
----------------------------------------------------------------------------------------------------------------
Framing                             330.39             -             -             -             -        330.39
----------------------------------------------------------------------------------------------------------------
NHHS Memorial                     6,045.29             -             -             -             -      6,045.29
----------------------------------------------------------------------------------------------------------------
Postage                           1,565.70        226.91         44.00         44.00             -      1,880.61
----------------------------------------------------------------------------------------------------------------
Printing                          8,968.72      6,940.34      2,714.23      (608.43)        126.72     18,141.58
----------------------------------------------------------------------------------------------------------------
Professional fees                        -        145.07             -             -             -        145.07
----------------------------------------------------------------------------------------------------------------
Rentals                             205.00             -             -             -             -        205.00
----------------------------------------------------------------------------------------------------------------
Research, consulting &            7,010.83             -             -             -             -      7,010.83
 writing
----------------------------------------------------------------------------------------------------------------
Sgt Eugene Ashley JROTC                  -             -             -             -        100.00        100.00
----------------------------------------------------------------------------------------------------------------
Staffing                            120.40             -             -         30.00             -        150.40
----------------------------------------------------------------------------------------------------------------
USO Lobby Restoration                    -     13,867.03      2,572.49        854.03        231.90     17,525.45
----------------------------------------------------------------------------------------------------------------
WWII Jamboree at USO                     -             -        645.79             -             -        645.79
----------------------------------------------------------------------------------------------------------------
                               $ 30,642.06   $ 22,187.66    $ 6,439.26      $ 344.60      $ 565.61   $ 60,179.19
----------------------------------------------------------------------------------------------------------------
Receipts less disbursements     $ 7,523.93    $ 3,082.67  $ (5,331.26)    $ 1,003.40    $ (565.61)    $ 5,713.13
----------------------------------------------------------------------------------------------------------------

    The Coalition received 501(c)(3) North Carolina incorporation in 
the spring of 2008.
    All funds received by the Coalition are converted as soon as 
practical to pay for projects, functions, and administrative costs. 
Funds are raised primarily through soliciting small private individual 
and organizational donations.
    The Coalition received three grants to fund the research, printing, 
and distribution of the three editions of the World War II Heritage 
Guide Map of Wilmington and Southeastern North Carolina. The latest was 
for $6,500 in 2008 from the City of Wilmington.
    Tax-deductible donations to support our history preservation 
projects can be made payable to the Coalition and mailed to P.O. Box 
425, Wilmington 28402.
           --Jennifer H. Presnell, CPA, Coalition Treasurer 
                        Manager, McGladrey &Pullen, LLP
                                 - o -
            In Memorium - Strong Supporters and Dear Friends
                       Hannah Solomon Block--2009
                  Honorable John J. Burney, Jr.--2010
  Colonel Charles P. Murray, Jr., USA (Ret.), Medal of Honor, France, 
                               1944-2011
                     Margaret Sampson Rogers--2011
                                 - o -
                            Future Projects
    u Continue pursuit through the U.S. Congress in 2012 for national 
recognition of Wilmington as the first to be designated as an 
``American World War II City.''
    u With the Society of the 3rd Infantry Division, in 2012 place a 
historical marker at Murray's Medal of Honor action site at 
Kaysersberg, Alsace, France.
    u With the NHHS PTSA and Army Junior ROTC, continue re-development 
and expansion of the garden around the school's Medal of Honor 
memorial, and host alumni reception there.
    u Continue sponsorship and production of annual Pearl Harbor 
anniversary ceremonies on December 7th at Battleship Park.
    u Continue installation of HBHUSO/CAC new exhibits and artifacts - 
such as the just-acquired broken champagne bottle in net and ribbons 
which launched the Liberty ship SS Roger Moore in Wilmington in 1943 - 
and upkeep of existing exhibits in lobby area home front museum, 
including memorial plaques to the Medal of Honor recipients, and all 
New Hanover County men who died.
    u Continue sponsorship and production of HBHUSO/CAC veterans 
events, open houses, and other history and arts-related events.

                                 <F-dash>
      Prepared Statement of Daniel Bendetson and Michael Bendetson
    Can two students help save America from the divisiveness that has 
paralyzed the political process? We believe we can. Let us all agree 
that something in this country needs to be changed. Americans need to 
become proud of America again and realize how unique America is. We 
need to re-instill the sense of patriotism and gratitude that is so 
often missing particularly among young people. It is with this in mind 
that we are trying to enlist support for an event unprecedented in 
American history. Such an event would accomplish the nearly impossible 
- unifying a divided America five days after the November presidential 
election on Sunday, November 11, 2012. It is an event in which millions 
of Americans could stand together in unity while at the same time 
honoring our veterans.
    The idea is very simple - a two minute moment of silence at the 
same time throughout this entire country on Veterans Day to honor our 
veterans. We have witnessed firsthand in Israel last April the power of 
such an idea when on their Memorial Day an entire country literally 
froze and stood at attention for two minutes. The sirens went off in 
every town, city, and in every neighborhood all over the country. Cars 
and buses stopped along the highways and factories halted. The 
Legislative and Supreme Court sessions stopped. All students, whether 
in kindergarten, middle school, high school or universities, stood at 
attention for two minutes. A similar moment of silence is also observed 
in England and Canada. This is how a grateful nation recognizes the 
sacrifices of those who gave their lives for the homeland.
    When we returned home to America, we were appalled to see how 
little is done on November 11 to show our appreciation for those who 
have given to us so much. Veterans Day has become a day of mattress 
sales, a regular day of work for many, or a day off from school without 
any sense of gratitude for those who risked their lives and died for 
our freedom. We owe so much not only to our courageous Iraq and 
Afghanistan veterans but also to our Vietnam veterans and our aging 
Korean and World War II veterans.
    It is with this in mind that we have spent the last 18 months 
trying to bring a similar ritual to this country. With multiple 
cosponsors both Senator Scott Brown and Congressman Barney Frank from 
our home state of Massachusetts introduced identical Bills in the House 
and Senate known as The Veterans Day Moment of Silence Act - HR 2498 
and S 1348 on July 12, 2011. This legislation is now pending before the 
House Veterans Affairs Committee where we have been graciously asked to 
testify today before the Subcommittee on Disability and Memorial 
Affairs and the Senate Judiciary Committee. We have received the 
support and encouragement of the following:
    <bullet>  Vice President Joseph Biden
    <bullet>  House Majority Leader Eric Cantor
    <bullet>  Senators: Scott Brown, John Kerry, Mark Begich, Robert 
Casey Jr., John Thune, Joe Lieberman, James Inhofe, Saxby Chambliss, 
Jim Webb, and Mark Kirk
    <bullet>  Members of Congress: Barney Frank, Niki Tsongas, Yvette 
Clarke, Raul Grijalva, Michael Grimm, Stephen Lynch, Edward Markey, 
Silvestre Reyes, Laura Richardson, Michael Capuano, Timothy Bishop, 
Frank Giunta, Allen West, and Tom Price.
    <bullet>  Former Speaker of the House Newt Gingrich
    <bullet>  Governors: Deval Patrick, Nikki Haley, Rick Perry, Jon 
Huntsman, and Buddy Roemer
    <bullet>  Massachusetts Lt. Governor Tim Murray and Treasurer 
Steven Grossman
    <bullet>  Mayors: Rudy Guiliani and Setti Warren
    <bullet>  Our College Presidents - Mary Sue Coleman, President of 
the University of Michigan and Anthony Monaco, President of Tufts 
University
    We are one nation with millions of Americans who want to stand 
together with our President to show unprecedented solidarity with our 
veterans. Let us hope on 11-11-12 millions of Americans can stand 
together at the same time with either our re-elected President and his 
Republican opponent or President Obama and the new President-Elect as 
the Commander-In-Chief places the wreath on the Tomb of the Unknown 
Soldier at Arlington National Cemetery at:

    2:11 PM on the East Coast
    1:11 PM in the Central Time Zone
    12:11 PM in the Mountain Time Zone
    11:11 AM on the West Coast
    10:11 AM in Alaska and
    9:11 AM in Hawaii.

    One of the great things about America is that anyone can effectuate 
change. Let us help create a sense of unity that transcends partisan 
politics and create an atmosphere where we can as a civil, respectful 
country craft bipartisan solutions to issues that need resolution. This 
is part of our blueprint for a better America. We have accomplished 
more than we ever dreamed possible. With potential NFL involvement on 
Sunday, November 11, 2012, it our hope and faith that millions of 
Americans can join our President to honor those who serve America. 
Thank you for listening to us.
    Daniel Bendetson
    Michael Bendetson

    University of Michigan, Class of 2015Tufts University, Class of 
2012

                                 <F-dash>
                   Prepared Statement of Max Cleland
    Mr. Chairman and Members of the Subcommittee . . . .

    Thank you for this opportunity to offer testimony on H.R. 4168, The 
Caring for the Fallen Act, which would direct the American Battle 
Monuments Commission to assume responsibility for the former Clark Air 
Base Cemetery in the Philippines and to make necessary arrangements to 
maintain it.
    We agree that Clark cemetery is a problem that warrants resolution. 
When the Air Force vacated Clark Air Base and the base rights agreement 
with the Philippines expired, the cemetery became the responsibility of 
the Philippine Government. Over time, this had the effect of leaving 
its care in the hands of a few dedicated VFW volunteers. They have done 
a wonderful job with limited resources, particularly considering that 
burials of U.S. veterans have continued since the Air Force departure, 
but the volunteers cannot be expected to continue that effort 
indefinitely.
    We do not know how many of the 8,000 dead at Clark cemetery are 
U.S. veterans--the Clark Veterans Cemetery Restoration Association 
website cites 1,800 as confirmed veterans and several thousand more as 
presumed veterans.
    We are on record with this Subcommittee as stating that Clark 
cemetery does not fall within our Commission's core commemorative 
mission. That remains true. However, given the Air Force's history with 
the cemetery and the fact that veterans' burials have continued, we 
initiated a meeting in ABMC's Virginia Headquarters last December with 
representatives of the Air Force and the Department of Veterans Affairs 
National Cemetery Administration to explore possible solutions to this 
issue. A consensus could not be reached on what should or could be 
done.
    ABMC has serious concerns with H.R. 4168 as drafted. While this 
bill's intention is laudable, we do not believe the bill addresses 
adequately the issues that must be resolved before any corrective 
action is taken, nor do we believe the proposed budget neutrality 
status to be reasonable or supportable.
    If the Congress should decide to move legislation forward, the 
Administration believes such legislation should address three critical 
elements: access, authority, and funding.

    1. Access--To our knowledge, the United States has no legal 
standing to undertake any work at Clark cemetery. The Department of 
State would have to enter negotiations with the Philippine Government 
to provide long-term U.S. access to the cemetery. This would have to be 
accomplished before any agency of the federal government could maintain 
the cemetery.
    2. Authority--ABMC has no authority to spend its appropriations to 
maintain a cemetery controlled by a foreign government and the 
Administration does not support any change in this position.
    3. Funding--Budget neutrality is not supportable. We cannot 
successfully complete a project of this scale without significant 
negative consequences on the rest of ABMC's program. There is presently 
no government estimate of the cost to restore and maintain Clark 
cemetery. The Clark Veterans Cemetery Restoration Association estimates 
the restoration cost at $2.0 million and annual maintenance costs at 
$250,000. There are more than 8,000 graves to maintain at Clark 
cemetery--more than we maintain at 19 of our 24 overseas cemeteries. 
Most of the headstones at Clark are partially buried in volcanic ash. 
We suspect that the association's estimates understate the magnitude of 
the restoration work required.
    When I testified before you on February 16, I reported that ABMC's 
Fiscal Year 2013 budget request for Salaries and Expenses was $2.7 
million, or five percent, below our Fiscal Year 2012 appropriation. 
Most of that reduction will be taken in maintenance and infrastructure 
programs. Mr. Chairman, you asked if we could sustain such a reduction. 
I told you we were okay for now, but that we cannot sustain such 
reductions indefinitely.
    We recognize that the Budget Control Act limits all agencies, 
including ABMC, to a budgeted level in the outyears, and that any 
increase to our budget would have to be offset from another agency's 
outyear allowances.
    Nonetheless, if the Congress directs our agency to take on a large-
scale new program requirement such as the restoration and maintenance 
of Clark cemetery, even the association's conservative cost estimates 
would reduce our Fiscal Year 2013 funding request by an additional four 
percent--for a total reduction of $5.0 million. Taken further, this 
would result in a 14 percent cut in program funding for engineering and 
maintenance, horticulture, logistics and interpretation.
    This is not ``budget neutral'' for an agency of our size and 
budget. An unfunded new mission of the scope of Clark cemetery cannot 
help but have a significant impact on our ability to execute our core 
mission.
    H.R. 4168 has serious access, authority and funding issues that 
prevent us from supporting this legislation.

                                 <F-dash>
                  Prepared Statement of Thomas Murphy
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the Department of Veterans Affairs 
(VA) on several legislative items of great interest to Veterans and the 
Department. Joining me today is Richard Hipolit, Assistant General 
Counsel.
                               H.R. 4142
    H.R. 4142, the ``American Heroes COLA Act,'' would amend 38 U.S.C. 
Sec.  5312 to provide permanent authority for the Secretary of Veterans 
Affairs to implement cost-of-living increases to the rates of 
disability compensation for service-disabled Veterans and the rates of 
dependency and indemnity compensation (DIC) for survivors of Veterans. 
This bill would direct the Secretary to increase the rates of those 
benefits whenever a cost-of-living increase is made to benefits under 
title II of the Social Security Act. The rates of compensation and DIC 
would be increased by the same percentage as Social Security benefits. 
This bill would also make permanent the round-down requirement for 
compensation cost-of-living adjustments. This bill would take effect on 
December 1, 2013.
    VA supports this bill because it would be consistent with Congress' 
long-standing practice of enacting regular cost-of-living increases for 
compensation and DIC benefits in order to maintain the value of these 
important benefits, but would eliminate the need for additional 
legislation to implement such increases in the future. It would also be 
consistent with current 38 U.S.C. Sec. Sec.  1104(a) and 1303(a), which 
provide that cost-of-living adjustments to compensation and DIC 
amounts, if they are made, will be at a uniform percentage not 
exceeding the percentage increase to Social Security benefits. VA 
estimates that the enactment of the COLAs would result in first-year 
benefit costs of $831 million during Fiscal Year (FY) 2014, five-year 
benefit costs of $10.6 billion, and ten-year benefit costs of $59.2 
billion. The bill also extends the current COLA round down to the next 
whole dollar (authority which expires at the end of FY2013), resulting 
in PAYGO savings of $29 million in FY2014, $354.5 million for five 
years and $1.8 billion over ten years.
                               H.R. 4114
    H.R. 4114, the ``Veterans' Compensation Cost-of-Living Adjustment 
Act of 2012,'' would require the Secretary of Veterans Affairs to 
increase, effective December 1, 2012, the rates of disability 
compensation for service-disabled Veterans and the rates of DIC for 
survivors of Veterans. Current estimates suggest that the consumer 
price index will increase by 1.9%. This bill would increase these rates 
by the same percentage as the percentage by which Social Security 
benefits are increased effective December 1, 2012.
    VA wholeheartedly supports this bill because it would express, in a 
tangible way, this Nation's gratitude for the sacrifices made by our 
service-disabled Veterans and their surviving spouses and children and 
would ensure that the value of their well-deserved benefits will keep 
pace with increases in consumer prices. VA estimates that this bill 
would result in first-year benefit costs of $772 million in FY 2013, 
five-year benefit costs of $4.9 billion, and ten-year benefit costs of 
$10.9 billion. However, as annual COLAs are included in the baseline 
for the Disability Compensation program, no PAYGO costs are associated 
with this proposal.
                               H.R. 2051
    H.R. 2051, the ``Veterans Missing in America Act of 2011,'' would 
direct the Secretary to cooperate with Veterans Service Organizations 
to assist entities in possession of unclaimed or abandoned human 
remains in determining whether such remains are those of Veterans or 
other persons eligible for burial in a national cemetery. If unclaimed 
remains are identified as those of Veterans or other eligible persons, 
the Secretary would provide for burial of the remains in a national 
cemetery and would cover the cost of preparation, transportation, and 
burial of the remains. The bill would further direct VA to establish a 
national database of such identified individuals.
    VA strongly supports the goal of ensuring that those who have 
earned the right to burial in a national cemetery are accorded that 
honor. VA commends organizations and volunteers who work to ensure that 
unclaimed and abandoned remains of our Nation's Veterans are identified 
and, if eligible, receive a proper burial in a national cemetery. To 
ensure that eligible Veterans receive burial in a national cemetery, VA 
currently works with States, counties, municipalities, and private 
organizations to determine the eligibility of unclaimed and abandoned 
remains that are held at funeral homes or coroner's offices. In this 
regard, VA's National Cemetery Scheduling Office (NCSO) located in St. 
Louis, Missouri coordinates with Federal, State, and local agencies to 
verify a deceased individual's identity and military service. NCSO also 
provides eligibility review assistance to entities such as the Missing 
In America Project (MIAP), to identify unclaimed remains and inter all 
eligible individuals. In FY 2011, NCSO processed 663 requests for 
burial eligibility determinations that were submitted by the MIAP, 
which works on behalf of entities, such as city and county coroners' 
offices, to ensure eligible Veterans receive proper burial. Currently, 
NCSO is working with the State of Oregon to identify unclaimed remains 
recently found in that state and determine whether such individuals may 
be eligible for burial in a national cemetery.
    VA does not, however, support this bill insofar as it would expand 
existing funeral and transportation benefits to certain non-Veterans 
and would place no cap on the amount of such payments. Section 3(b) 
would require VA to pay the cost of the burial, preparation, and 
transportation of the unclaimed or abandoned remains of any individual 
who is eligible for national cemetery burial when there are 
insufficient resources to cover such expenses. Under current law, VA 
provides reimbursement benefits, up to maximum amounts specified by 
statute, for funeral and transportation costs associated with the 
burial of certain Veterans, but not all Veterans who are eligible for 
burial in a national cemetery qualify for these benefits. VA would 
support extending this benefit to all unclaimed remains of Veterans, 
subject to the same monetary caps generally applicable to such 
payments. However, VA does not support the current bill insofar as it 
would provide benefits for non-Veterans that are unavailable for many 
Veterans eligible for burial in a national cemetery and would lift the 
generally applicable monetary caps for this benefit.
    Section 3(c) of the bill would direct VA to establish a database of 
the names of any Veterans or other individuals who are determined, 
under the identification process described in this bill, to be eligible 
for burial in a national cemetery. We believe this provision is 
unnecessary. Currently, VA maintains a publicly-accessible database, 
commonly known as the National Gravesite Locator (NGL), which already 
performs the functions proposed in this legislation. The public can use 
the NGL to search for burial locations of Veterans and other 
individuals interred in VA National Cemeteries, State veterans 
cemeteries, and various other military and Department of the Interior 
cemeteries. The NGL also provides information about Veterans buried in 
private cemeteries whose graves are marked with a Government-furnished 
headstone or maker. Names of Veterans or other individuals who are 
eligible for burial and whose remains are unclaimed or abandoned would 
be made available to the public through the NGL once they are interred. 
The National Cemetery Administration is working to make this database 
even more accessible by implementation of a mobile application.
    H.R. 2051 would impose ongoing costs on VA by extending entitlement 
to burial and transportation reimbursement benefits for a new category 
of individuals, without a monetary limit on the amount of such 
reimbursement. However, VA presently is unable to estimate the likely 
extent of those costs.
                               H.R. 2498
    H.R. 2498, the ``Veterans Day Moment of Silence Act,'' would amend 
title 36 of the United States Code to add a provision requiring the 
President, each year, to issue a proclamation calling on the people of 
the United States to observe two minutes of silence on Veterans Day to 
honor the service and sacrifice of Veterans throughout the history of 
the Nation. VA supports the goal of promoting recognition and 
respectful commemoration by all Americans of the service and sacrifice 
of our Nation's Veterans. We defer to Congress on the most appropriate 
means of accomplishing that goal. There would be no VA costs associated 
with this bill.
                               H.R. 2377
    H.R. 2377, ``The Rating and Processing Individuals' Disability 
Claims Act'' or the ``RAPID Claims Act,'' would amend 38 U.S.C. Sec.  
5101 to establish procedures for the expeditious adjudication of fully 
developed claims. Section 2 of the bill provides that, if a claimant 
submits a fully developed claim, VA would provide the claimant with the 
opportunity to waive any claim-development period that would otherwise 
be available and would provide expeditious treatment of the claim. A 
``fully developed claim'' would be defined, in pertinent part, as one 
in which the claimant or the claimant's representative certifies in 
writing that no additional information or evidence is available or 
needed in order for the claim to be adjudicated. The term ``expeditious 
treatment'' would be defined to mean that the claim will be fully 
processed and adjudicated within 90 days after the date the Secretary 
receives the application for the benefit. Section 3 of H.R. 2377 would 
revise 38 U.S.C. Sec.  5104(b) to provide that, when VA denies a 
benefit sought, it will provide the claimant with ``any form or 
application required by the Secretary to appeal such decision.''
    VA does not support section 2 of this bill, as further statutory 
authority is not needed for VA to carry out its Fully Developed Claim 
(FDC) program. Like the bill's proposal, VA's current FDC program is 
designed to expedite and complete such claims within 90 days of 
receipt. VA has implemented the FDC program across all regional offices 
under the existing authority of 38 U.S.C. Sec.  501(a)(4), which 
provides the Secretary's authority to prescribe rules and regulations 
to include establishing the manner in which claims are adjudicated. The 
Secretary has complied with the Veterans' Benefits Improvement Act of 
2008, Public Law 110-389, section 221(a), which directed VA to carry 
out a one-year pilot program to assess the feasibility and advisability 
of expeditiously processing fully developed compensation and pension 
claims within 90 days after receipt of the claim. Based on the 
favorable results from the pilot, VA has expanded and fully implemented 
the program, thereby rendering H.R. 2377 unnecessary.
    We are also concerned that ambiguities in the bill text could lead 
to expansive and unintended interpretations by reviewing courts. First, 
proposed section 5101(d)(1)(B) could be construed to require VA to 
adjudicate claims within 90 days even if the claimant does not actually 
waive applicable claim development periods. This concern could be 
addressed by revising proposed paragraph (d)(1)(B) to state that VA 
will provide ``expeditious treatment to such claim after the claimant 
has waived any claim development period otherwise available.''
    Second, the purpose of proposed section 5101(d)(2) is unclear. That 
provision states that, if a person submits written notification of his 
or her intent to submit a fully developed claim and, within one year of 
such notification, submits a fully developed claim, VA will provide 
expeditious treatment to the claim. Because proposed paragraph (d)(1) 
of the statute would already require such expeditious treatment, 
proposed paragraph (d)(2) is unnecessary for that purpose. On the other 
hand, if the purpose of proposed paragraph (d)(2) is to provide that 
the claimant's initial notification to VA will be accepted as an 
``informal claim'' for purposes of assigning an effective date to any 
award of benefits, the language of the bill does not clearly support 
that result. We note that, under current regulations at 38 C.F.R. Sec.  
3.155(a), VA would accept the claimant's initial notification as an 
informal claim if it indicated the benefit sought and an intention to 
apply for that benefit.
    Third, the bill is unclear as to the standard VA would apply to 
determine that a claim submitted as a fully developed claim is not 
actually fully developed. Because proposed section 5101(d)(4)(A) 
defines the term ``fully developed claim,'' ordinary principles of 
statutory construction suggest that VA should apply that definition. 
However, that definition of ``fully developed claim'' is based solely 
upon the claimant's representation that no further evidence is needed, 
and not upon VA's judgment as to whether further evidence is needed. 
This raises a question as to whether a VA finding that further evidence 
is needed would suffice to establish that the claim is not ``fully 
developed'' for purposes of the statute.
    VA does not oppose section 3 of this bill, which would amend 
section 5104 to require VA to provide claimants whose claims are denied 
with any form or application required to appeal the decision, although 
we consider this provision unnecessary. Section 7105(b)(2) of title 38, 
United States Code, requires only that a notice of disagreement (NOD) 
be in writing, and VA currently does not require an NOD to be submitted 
on a specific form. VA is testing an optional NOD form at its Houston 
Regional Office. VA will assess any efficiencies the form might offer 
in determining qwhether to release it nationally. VA anticipates that a 
standardized form will improve our processes. Use of a form would 
clearly let VA know that an individual is in fact submitting an appeal. 
It would also help clearly identify the appealed issues by requiring 
the appellant to be specific about what part of the decision he or she 
is appealing. If VA does determine to require use of a standard NOD 
form, it would certainly make that form readily available to claimants.
    There would be no benefit or administrative costs associated with 
this proposal.
                               H.R. 2717
    H.R. 2717 would direct the Secretary of Veterans Affairs, each 
year, to designate one city in the United States as an ``American World 
War II City,'' and would designate Wilmington, North Carolina as the 
initial American World War II City. VA supports the goal of 
commemorating our Nation's World War II efforts on both the battlefield 
and the home front. We defer to Congress on the most appropriate means 
of accomplishing that goal. There would be no significant VA costs 
associated with this bill.
                               H.R. 4213
    H.R. 4213 would amend 38 U.S.C. Sec.  7255 to require that active 
judges of the U.S. Court of Appeals for Veterans Claims reside within 
50 miles of the District of Columbia. This bill would also amend 38 
U.S.C. Sec.  7253(f)(1) to provide that violation of this residency 
requirement may be grounds for removal of a judge from the court. The 
absence of such a residency requirement in current law has not created 
difficulties for VA. Accordingly, we perceive no need for this 
legislation insofar as VA's interests are concerned. This bill would 
result in no costs or savings for VA.
    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
               Prepared Statement of Hon. Bruce E. Kasold
    MR. CHAIRMAN AND DISTINGUISHED MEMBERS OF THE SUBCOMMITTEE:

    Thank you for the opportunity to present testimony on a proposal -
H.R. 4213 -to establish in statute a duty station for the judges of the 
United States Court of Appeals for Veterans Claims, consistent with 
other federal courts, as well as a requirement to reside within fifty 
miles of the District of Columbia.
    In the haste of creating the Court of Appeals for Veterans Claims - 
the youngest federa l appellate court -the application of several 
policy issues written in statute and applicable to federal judges in 
general was overlooked with regard to the judges of the Court of 
Appeals for Veterans Claims. A defined duty station is one example. The 
duty station for federal judges generally isprescribed by statute, see 
28 U.S.C. <l-arrow> 456, but until your proposal and a mirror proposal 
in the Senate -S. 2045 -no similar legislation has applied to the Court 
of Appeals for Veterans Claims. In the absence of legislation, the 
Court's Board of Judges has detennined that the duty station for all 
Court personnel, including judges , is the Court's principal office. 
This mirrors your proposed bill.
    With regard to a residence requirement , we note that congressional 
mandate with regard to such a requirement for an appellate court with 
national jurisdiction is mixed. Although the judges of the Court of 
Appeals for the Federal Circuit are required to reside within 50 miles 
of the District of Columbia, see 28 U.S.C. <l-arrow> 456, thejudges of 
the Court of Appeals for the Armed Forces have no residency 
requirement.
    To the extent the perceived need for a residency requirement arises 
from concerns over the efficient operation of the Court, we note that 
working from a remote area is becoming more practical. Our cases are 
now electronically filed and stored and are accessible anywhere a judge 
can locate a computer. Decisions are circulated for review 
electronically, and this is the preferred method to distribute cases 
for review even for those present and working at the Court (as opposed 
to working remotely). Conversations can and do take place by e-mail, 
phone, and video (although video is not widely available at the Court 
yet, but likely not far off). Indeed, recently, one of our judges was 
on travel and worked a case electronically with his iPad while his wife 
was driving the car. Moreover, the advent of e-filing and enhanced 
electronic communication capability, as well as recent changes in the 
administrative processing of appeals after they have been briefed - as 
discussed in my testimony before this Committee last month -have 
resulted in the Court's most productive years.
    Should Congress proceed with a residency requirement for the Court, 
we suggest that it be tied to the Washington, D.C., greater 
metropolitan area, and not just the confines of the District of 
Columbia, to be consistent with the statutorily required location of 
the Court's principal oftke, which can be anywhere in the Washington, 
D.C., greater metropolitan area. See 38 U.S.C. <l-arrow> 7255.
    As you proceed to consider the subject bill applying duty station 
and residency requirements for the federal appellate courts in general 
to the Court of Appeals for Veterans Claims, it seems appropriate to 
now consider adding three additional equalizing policies that we have 
discussed in the past. Specifically, we discussed modifying the 
survivor benefits and insurance statutes to provide coverage generally 
available for the other federal judges, and amending our pay statute to 
provide federal appellate judicial pay, as we are the only federal 
appellate court not receiving such pay at this time.
    There is a final equalizing bill that we urge remain under 
consideration. We are the only federal appellate court without its own 
courthouse, and, to our knowledge, the only federal court of record 
without its own courthouse. We understand that the Nation's current 
fiscal situation may not warrant building a courthouse at this time, 
but we share the veterans service organizations' support for such a 
courthouse and the concept that when the next federal courthouse is to 
be built, serious consideration should be given to making sure it is 
the Veterans' Courthouse.
    Thank you again for the opportunity to testify on this matter.

                                 <F-dash>
                Prepared Statement of Raymond C. Kelley
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:

    On behalf of the more than 2 million men and women of the Veterans 
of Foreign Wars of the United States (VFW) and our Auxiliaries, I would 
like to thank you for the opportunity to testify on today's pending 
legislation.
H.R. 4114, the Veterans' Compensation Cost-of-Living Adjustment Act of 
        2012:
    Disabled veterans, their surviving spouses and children depend on 
their disability and dependency and indemnity compensation to bridge 
the gap of lost earnings and savings that the veteran's disability has 
caused. Each year, veterans wait anxiously to find out if they will 
receive a cost-of-living adjustment. There is no automatic trigger that 
increases these forms of compensation for veterans and their 
dependents. They rely on an act of Congress each year to ensure they 
receive the same cost-of-living adjustment (COLA) that is payable under 
title II of the Social Security Act.
    The VFW supports this legislation that will bring parity to VA 
disability and survivor recipients' compensation by providing a COLA 
beginning December 1, 2012. However, the VFW continues to oppose the 
``rounding down'' of the increase. This is nothing more than a money-
saving gimmick that comes at the expense of our veterans and their 
survivors.
H.R. 4142, the American Heroes COLA Act:
    Each year veterans play a lengthy waiting game to see if they will 
receive a cost-of-living adjustment (COLA). Part of that wait is to see 
if Social Security is provided COLA, then they wait to see if Congress 
will introduce a bill that will authorize veterans and their dependents 
the same increase. Congress has routinely provided this increase, but 
it is an added step that confuses and leaves veterans feeling uneasy 
until the COLA bill is passed. The VFW supports H.R. 4142, as it 
removes the unneeded step of passing a bill to increase COLA. As stated 
previously, the VFW opposes the rounding down of COLA.
H.R. 2051, the Veterans Missing in America Act of 2011:
    The Missing in America Project (MIAP) has worked tirelessly around 
the country to find the unclaimed cremated remains of veterans. VA has 
had an ad hoc relationship with MIAP to provide burial options for 
veterans. This bill would formalize the relationship, ensuring veterans 
who have no living or financially capable family member are provided 
the level of remembrance and respect they have earned. The VFW supports 
this bill.
H.R. 2498, the Veterans Day Moment of Silence Act:
    On November 11, 1918, the Armistice was signed ending the War to 
End All Wars. Twenty years later Armistice Day was recognized as a 
National holiday dedicated to world peace, but in 1954, after two more 
wars, Armistice Day was changed to Veterans Day to honor the service 
and sacrifice of all veterans. In 1968, in an effort to commercialize 
Veterans Day, a bill was signed to make the observance of Veterans Day 
on a Monday, giving government employees a long weekend. That law has 
since been reversed, but Veterans Day continues to be commercialized 
and to those outside the veterans' community, the holiday has lost its 
meaning. H.R. 2498 will help restore the meaning, and act as a bridge 
for the 99 percent who sleep safely at night because of the service and 
sacrifice of our military veterans. The VFW proudly supports this bill 
and its quick passage.
H.R. 2377, the RAPID Claims Act:
    The Veterans' Benefit Improvement Act of 2008, now Public Law 110-
389, authorized a one-year pilot program on processing fully developed 
claims within 90 days. Due to the pilot's success, on June 15, 2010, 
the VA directed all Regional Offices to begin using VA Form 21-526EZ, 
the fully developed claim application for disability. This directive 
fulfills the spirit of H.R. 2377, and the VFW believes that review of 
the new directive would better serve veterans and VA than statutorily 
mandating a change. A thorough review could expose flaws or weaknesses 
that could be more easily corrected through directives than through 
future regulatory changes.
H.R. 2717, to direct the Secretary of Veterans Affairs to designate one 
        city in the United States each year as an ``American World War 
        II City:
    Cities around our nation, big and small, have tremendous histories 
of supporting ``the War Effort,'' and in an effort to preserve that 
history, it is suiting to designate an ``American World War II City'' 
each year. Therefore, the VFW supports the provision in H.R. 2717 to 
direct the Secretary of Veterans Affairs to annually bestow this title 
on a deserving city. The process of deciding should be done through a 
competitive process; therefore, the VFW cannot support the provision 
that will designate any city with the title outside of this competitive 
process.
H.R. 4168, the Caring for Our Fallen Act:
    In 1991, the Department of Defense pulled out the last airmen from 
Clark Air Force Base, leaving Clark Cemetery abandoned. In 1994, VFW 
Post 2485 assumed financial responsibility for keeping the cemetery in 
a ``state of arrested decay.'' To date, no government assistance, 
financial or otherwise, is provided for the upkeep of this cemetery. 
Next to the cemetery is a volcano, which erupted in 1991, leaving one 
foot of the headstones buried in ash. This is an unacceptable condition 
for our war dead, and it is time for our government to take 
responsibility for this cemetery. The VFW supports H.R. 4168, giving 
the American Battle Monuments Commission (ABMC) authority to care for 
Clark Cemetery. The ABMC is the best suited to assume this authority 
with their experience in care for cemeteries and monuments in foreign 
lands. However, it is important that ABMC is provided the financial 
resources necessary to ensure that needed improvements and ongoing 
maintenance can be performed without affecting their mission anywhere 
else on the globe.
H.R. 4213, an amendment to title 38, United States Code, to require 
        judges of the United States Courts of Appeals for Veterans 
        Claims to reside within fifty miles of the District of 
        Columbia:
    The VFW does not have a position on this bill.
    Mr. Chairman, this concludes my statement and I am happy to answer 
any questions the subcommittee may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2012, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>
                   Prepared Statement of Verna Jones
    Chairman Runyan, Ranking Member McNerney and distinguished Members 
of the Subcommittee:
    Thank you for this opportunity to submit The American Legion's 
views on the legislation being considered by the Subcommittee today. We 
appreciate the efforts of this Subcommittee to address the different 
needs of the men and women who are currently serving and those who 
served during past conflicts.
H.R. 4114--Veterans Compensation Cost of Living Act of 2012 and H.R. 
        4142--American Heroes COLA Act
    HR 4114 provides for a Cost of Living increase for veterans 
receiving disability at the conclusion of 2012. HR 4142 would provide 
an automatic Cost of Living adjustment annually directly linked to the 
Cost of Living adjustment provided to those receiving Social Security.
    The American Legion recognizes that veterans, like many American 
citizens, have seen rising costs in the household and supports annual 
cost of living adjustments (or COLA). The American Legion has by 
resolution opposed an automatic, direct correlation of veterans' COLA 
to Social Security, because of concerns that a direct correlation would 
not take into account individual requirements of veterans. Such a 
correlation would also leave veterans more vulnerable to political 
maneuvering and budgetary legerdemain directed at overall cost cutting. 
Veterans have earned, through their sacrifice, unique consideration.
    It is important to understand how COLA increases occur, and why The 
American Legion remains concerned about direct correlation to Social 
Security. COLA increases are tied to a Consumer Price Index (CPI-W) and 
should the CPI rise, then the COLA will reflect this increase. This has 
been a source of much confusion as, in recent years, the CPI has not 
resulted in a positive number and therefore despite the passage of COLA 
legislation, veterans did not receive an actual adjustment of their 
disability pay for several years. Given that those veterans had seen 
their household costs rise over that period of time, it felt insulting 
and confusing to be told by the government that their costs had not 
gone up; therefore they would have to make do at the previous rate.
    As talk circulates in Washington to tying COLA increases for large 
portions of the budget such as Social Security to the so-called 
``Chained CPI'', which has an even lower rate of increase, disabled 
veterans can expect an even lower likelihood of increase in their 
disability income, in many cases the only source of income for their 
families.
    America has already seen the unique challenges faced by veterans in 
increased unemployment rates. COLA increases affect two main 
classifications of veterans: those veterans who have been disabled by 
service to their country; and veterans receiving pension who are unable 
to work and otherwise destitute. In both cases, there are often 
substantial medical concerns not reflected adequately in the standard 
CPI-W model. Furthermore, the standard CPI-W model reflects the 
``average urban wage earner'' yet a growing number of veterans are 
located in more rural areas and may face other challenges such as 
greater fuel and shipping needs to meet basic requirements of daily 
living.
    Veterans deserve a CPI that reflects their unique challenges. 
While, to the best of our research there is no model specifically 
designed for them, there is an experimental CPI that does reflect the 
increased medical costs of a community that may be a better reflection 
of the challenges faced by disabled veterans. The CPI-E is an 
experimental CPI that reflects the increased health care costs faced by 
the elderly. Disabled veterans, like the elderly, often suffer from 
multiple, ongoing conditions, and a Consumer Price Index that reflects 
this is perhaps a better measure of what their households may expect in 
terms of rising costs.
    The American Legion supports a one-time COLA increase this year, as 
we have each year it has been passed before. We must ensure veterans 
are getting some relief from rising costs. However, before long term 
measures are considered, we urge Congress to reflect on the unique 
considerations those disabled in our nation's service merit.
    H.R. 4142 is admirable in intent. With the passage of legislation 
similar to this, veterans would no longer be dependent on the whims and 
mood of Congress to pass legislation annually to adjust their 
disability payments. Disabled veterans could take solace in knowing 
there would be an automatic mechanism to take into account their 
increased challenges and adjust their disability pay accordingly. 
However, before The American Legion can support this legislation, we 
urge Congress to consider modifying the legislation to be unique to 
veterans and their challenges, and not simply to attach our service 
disabled veterans to the coat tails of Social Security, to rise and 
fall with the fortunes of the larger group and devoid of consideration 
of their unique sacrifices.
The American Legion supports H.R. 4114, but cannot support H.R. 4142 as 
        written.
           H.R. 2051--Veterans Missing in America Act of 2011
    This bill directs the Secretary of the Department of Veterans 
Affairs (VA) to work to identify unclaimed remains nationwide while 
also expressing a sense of the Congress recognizing the work done by 
the Missing in America Project (MIAP) in this area.
    The Missing in America Project (MIAP) is a collection of little-
heralded heroes working to ensure none of our nation's defenders go 
forgotten. This organization, working entirely through private 
donations and the extraordinary efforts of their membership seek to 
identify unclaimed remains and cremains (cremated remains) at funeral 
homes throughout the United States. Where the remains are identified to 
be veterans they are escorted with full military honors and interred in 
the manner befitting their service. Since being launched in 2007, MIAP 
has visited over 2,200 funeral homes and identified nearly 2,000 
veterans' cremains out of nearly 14,000 cremains found overall
    Many states have already begun to pass legislation to better 
facilitate this mission, so it is only natural that the federal 
government be enlisted to further this end.
    Many American Legion members volunteer with MIAP, and The American 
Legion has long worked closely with this organization and supported 
their efforts. Increasing a governmental role in supporting this worthy 
task is important. The work begun by MIAP is only the beginning. While 
the work of volunteers is strong, and will continue with the same 
fervor, adding the departmental heft of the VA can help increase the 
scope with which this mission is carried out nationally. No veteran who 
has served this nation should languish forgotten and unclaimed in the 
back room of a funeral home.
The American Legion supports this bill.
              H.R.2498--Veterans Day Moment of Silence Act
    This bill encourages a nationwide ``two minutes of silent 
reflection'' every Veterans Day.
    The American Legion is deeply committed to fostering a spirit of 
American patriotism and dedication to the men and women who have served 
this nation in times of war and in times of peace and prosperity. While 
The American Legion works toward an America where all citizens would 
stop to reflect on a daily basis of the service and sacrifice of our 
nation's veterans, this perfect state need not be the enemy of the good 
notion presented here in this legislation. We wholeheartedly support 
attempts to increase our country's reflection on those who have borne 
the battle for this great nation.
The American Legion supports this bill.
                      H.R. 2377--RAPID Claims Act
    This bill codifies expeditious treatment for claims determined to 
be fully developed.
    While The American Legion supports fast tracking claims which are 
presented fully developed, to expedite service for veterans whose 
claims do not require extensive legwork and research above and beyond 
the material already presented by the veteran, we question the 
necessity and impact of additional legislation to achieve this goal.
    As we speak, VA has already initiated the most important aspects of 
this bill of their own volition. Additional legislation may impact the 
delivery of this service, causing an unnecessary ripple in a procedure 
that is already moving forward in a generally satisfactory manner. The 
American Legion recognizes the important intent behind the creation of 
this legislation, and the aims of this legislation are certainly 
admirable; however, it would seem time and events may have overtaken 
this worthy proposal, obviating further need of legislation. 
Furthermore The American Legion remains concerned the changing of 
statute necessary to implement this bill may potentially have a 
negative impact on the procedures already in place and delivering 
expedited service to veterans who submit fully developed claims.
The American Legion supports the aims, but questions the necessity of 
        this bill.
                H.R. 2717--American World War II Cities
    This bill would annually designate one U.S. city as an ``American 
World War II City'' beginning with Wilmington, NC, in recognition of 
the deep contributions made by those cities during the World War II 
era.
    While the spirit of recognition of the sacrifices and efforts made 
by American cities in World War II, and indeed in every era of American 
history is admirable, The American Legion has no position on the 
necessity of designation of cities as ``American World War II Cities'' 
at this time.
The American Legion has no position on this bill.
                  H.R. 4168--Caring for the Fallen Act
    This bill would transfer responsibility of Clark Veterans Cemetery 
in the Philippines to the American Battle Monuments Commission to 
provide for ongoing maintenance and care.
    Clark Veterans Cemetery in the Philippines is sometimes tragically 
referred to as ``The Cemetery America Forgot.'' The American Legion 
remains dedicated to ensuring that name is a misnomer. For over two 
decades now since the United States relinquished control of the Air 
Base, the cemetery has languished, tarnishing the memory of those 
interred there, both American and Filipino. The American Battle 
Monuments Commission is justly recognized as exemplary in their 
stewardship of American war dead in foreign lands. The American Legion 
supports transfer of stewardship of this important resting place of our 
nation's fallen to the American Battle Monuments Commission. It is past 
time to ensure these fallen heroes' resting place is restored to the 
top standard they deserve.
The American Legion supports this bill.
H.R. 4213--To amend title 38, United States Code, to require judges of 
the United States Court of Appeals for Veterans Claims to reside within 
    fifty miles of the District of Columbia, and for other purposes.
    This bill would amend residency requirements for judges on the 
United States Court of Appeals for Veterans Claims.
    The American Legion believes the primary driving focus of providing 
judges to the Court of Appeals for Veterans Claims (CAVC) should be 
their dedication to jurisprudence and their ability to manage the 
workload to avoid contributing to backlogs so prevalent in areas 
related to veterans' claims appeals. When legislation was initially 
enacted for some courts to require judges to live within a certain 
geographic proximity, modern advancements in electronic communication 
did not exist at present levels. Every case to appear before the CAVC 
is encoded in an electronic format. Given modern technology, there is 
no reason judges should be hampered in the performance of their duties 
based solely on geographic location. It is the understanding of The 
American Legion further that the Court is not responsible for travel 
expenses for judges, therefore if judges choose to incur greater travel 
expenses by living outside the Beltway in Washington, DC that is within 
their rights. It does not, to our knowledge, add any additional burden 
to the taxpayer, nor should this be the primary concern.
    The primary concern in staffing the Court should be getting the 
best possible judges to fill the benches and ensuring the benches stay 
filled with productive judges. Adding outside perspectives from regions 
outside the inner circle of the DC Beltway could even be productive, 
reflecting better understanding of regional offices across the country. 
One of the complaints often registered about VA Central Office is a 
lack of understanding of what transpires outside the boundaries close 
to the flagpole in Washington, DC.
    The American Legion remains dedicated to putting the absolute best 
possible candidates on the bench of the CAVC to rule justly over the 
cases of the veterans who pursue their claims to this level. In the 
modern, technological electronic world, geography simply does not 
represent the challenge it once did, and quality of applicant is a far 
more important criteria.
The American Legion does not support this bill.
    The American Legion appreciates the opportunity to comment on the 
bills being considered by the Subcommittee.
Executive Summary

----------------------------------------------------------------------------------------------------------------
                          BILL                                                   POSITION
----------------------------------------------------------------------------------------------------------------
                                              HR 4114                             The American Legion supports
----------------------------------------------------------------------------------------------------------------
                                              HR 4142        The American Legion does not support as presently
                                                                                                       written
----------------------------------------------------------------------------------------------------------------
                                              HR 2051                             The American Legion supports
----------------------------------------------------------------------------------------------------------------
                                              HR 2498                             The American Legion supports
----------------------------------------------------------------------------------------------------------------
                                              HR 2377    The American Legion supports the intent but questions
                                                                                    the necessity of this bill
----------------------------------------------------------------------------------------------------------------
                                              HR 2717         The American Legion has no position on this bill
----------------------------------------------------------------------------------------------------------------
                                              HR 4168                             The American Legion supports
----------------------------------------------------------------------------------------------------------------
                                              HR 4213                     The American Legion does not support
----------------------------------------------------------------------------------------------------------------

    NINETY-THIRD NATIONAL CONVENTION OF THE AMERICAN LEGION

    Minneapolis, Minnesota

    August 30, 31, September 1, 2011

    Resolution No. 60: The American Legion Policy for the United States 
Government to Provide Maintenance to Clark Veterans Cemetery in the 
Philippines

    Origin: Virginia

    Submitted by: Convention Committee on National Security
    (Consolidated with Resolution No. 100 (P1))

    WHEREAS, The United States closed its military bases in the 
Philippines in 1992; and
    WHEREAS, The devastation caused by the volcanic eruption of Mount 
Pinatubo in 1991 caused the United States Air Force (USAF) to leave 
Clark Air Force Base on the Philippine island of Luzon; and
    WHEREAS, For almost fifty years the USAF maintained the Clark 
Veterans Cemetery on the U.S. Clark Veterans Cemetery on the U.S. Clark 
Air Force Base; and
    WHEREAS, This cemetery was established in 1948 to receive and honor 
the remains from four other United States military cemeteries that date 
back to the Spanish American War, cemeteries Fort Stotsenburg One and 
Two, the Canacao Naval Hospital at Sangley Point, and the Fort William 
McKinley Army Cemetery in Manila; and
    WHEREAS, Over eight thousand veterans and their families and others 
authorized for U.S. interment repose in the Clark Veterans Cemetery, 
with more than half being the American veteran dead of all services; 
and
    WHEREAS, Following base closure in 1991 the Clark Veterans Cemetery 
fell into disrepair and disgrace because provision was not made by the 
United States Government for its perpetual care; and
    WHEREAS, Veterans of Foreign Wars Post 2485 with assistance of 
American Legionnaires has labored since 1994 to maintain the military 
cemetery and honor the hallowed ground and the traditions of warrior 
burial without support of the United States Government; and
    WHEREAS, An Associated Press news article on the depressing state 
of the cemetery and the valiant efforts of retired veterans to support 
and sustain it recently appeared in newspapers throughout the United 
States on the fourth of July 2011; and
    WHEREAS, The United States Government, through the Department of 
Veterans Affairs and the American Battle Monuments Commission, provides 
eternal and perpetual care for other military cemeteries wherein are 
buried our valorous comrades; now, therefore, be it
    RESOLVED, By the American Legion in National Convention assembled 
in Minneapolis, Minnesota, August 30, 31, September 1, 2011, That the 
American Legion calls upon the United States Government to reassume its 
century old responsibility for the care and maintenance of this U. S. 
Military cemetery, Clark Veterans Cemetery, and with that act further 
validates the lives of service to their county of those interred there.

                                 <F-dash>
                        Statement For The Record

 Congressman Patrick J. Tiberi, Testimony for H.R. 2051, the Veterans 
                     Missing in America Act of 2011
    Thank you, Chairman Runyan, Ranking Member McNerney, for having 
this hearing. I submit this testimony in support of my bill H.R. 2051, 
the Veterans Missing in America Act of 2011.
    Americans rightfully remember the contributions and sacrifices made 
by our nation's veterans and celebrate the liberty and freedom that 
they made possible. Whether a service member made the ultimate 
sacrifice on the battlefield or returned home to civilian life after 
their term of service, all veterans deserve to be buried with dignity 
and honor. For this reason, all honorably discharged veterans are 
entitled to burial in one of our national cemeteries.
    Unfortunately, sometimes veterans pass away without any next of 
kin. As a result, their remains stay at funeral homes or other 
institutions for years without a proper burial. Some of our nation's 
heroes have lain unclaimed for decades. This is an indignity that 
should never happen to anyone who has worn our nation's uniform. One 
disturbing report described how the remains of a World War I Bronze 
Star recipient were literally left in a rusty can on a shelf for more 
than 50 years because no one claimed them.
    Fortunately, a group of dedicated volunteers began the Missing in 
America Project to address this problem. The Missing in America Project 
aims to identify any veterans among unclaimed remains and provides a 
proper funeral and burial. However, in spite of their noble intentions 
and hard work, sometimes these volunteers run into legal complications 
in pursuing this worthy cause.
    So, Congressman Steve Stivers, a veteran himself, and I introduced 
H.R. 2051, the Veterans Missing in America Act of 2011. This bill 
directs the Secretary of Veterans Affairs to help organizations, like 
the Missing in America Project, partner with entities in possession of 
unidentified or abandoned remains. This partnership would determine if 
any of the remains are those of a veteran eligible for burial at a 
National Cemetery. Once eligibility is determined, the Secretary of 
Veterans Affairs would cover the cost of interment, if there is no next 
of kin and no available private resources to cover burial and funeral 
expenses. In addition, the bill calls on the Secretary of Veterans 
Affairs to establish a public database of the veterans identified in 
this project.
    I am thankful to my constituent, Steve Ebersole of the American 
Legion, who first brought this problem to my attention. Also, I am 
honored and grateful to have the support of the American Legion, the 
Military Officers Association of America, the National Funeral 
Directors Association, and the Association of the United States Navy to 
help honor those who gave their lives in service to the United States. 
This bill allows us to take another critical step in ensuring that all 
veterans are treated with the dignity and respect they deserve. Their 
sacrifices should be recognized by providing a fitting and solemn 
burial.
Executive Summary of H.R. 2051, the Veterans Missing in America Act of 
        2011
Background
    <bullet>  Sometimes when individuals pass away, there is no next of 
kin identified, and their remains stay at funeral homes without anyone 
laying them to rest. The Missing in America Project started by a 
handful of veteran service volunteers aims to identify veterans among 
unclaimed remains, and provide a funeral and burial. Sometimes they run 
into complications in pursuing this noble cause. However, someone who 
served their country in the military deserves the respect of a proper 
burial; they stepped up and answered the Nation's call.
H.R. 2051, the Veterans Missing in America Act of 2011
    <bullet>  This legislation would recognize the work and dedication 
of the Missing in America Project, in cooperation with numerous 
veterans service organizations, in identifying unclaimed remains of 
veterans.
    <bullet>  The measure directs the Secretary of Veterans Affairs to 
work with veterans service organizations to identify unclaimed remains 
of veterans eligible for burial in a national cemetery.
    <bullet>  If there is no next of kin and there are no available 
resources to cover burial and funeral expenses, the Secretary of 
Veterans Affairs would cover the cost of burial,
    <bullet>  This legislation would direct the Secretary to establish 
a publicly accessible database of the names of any veteran or other 
individual so identified
    <bullet>  The American Legion, Military Officers Association of 
America, National Funeral Directors Association, and the Association of 
the United States Navy support this legislation.

                                 <F-dash>
Rear Admiral Dan McKinnon (RET), Vice Chairman, Clark Veterans Cemetery 
                    Restoration Association (CVCRA)
    Chairman Runyan, members of the Subcommittee, I am retired Rear 
Admiral Dan McKinnon, Vice Chairman of the Clark Veterans Cemetery 
Restoration Association (CVCRA), speaking in behalf of H.R. 4168, 
introduced to honor American veterans by Congressman Frank Guinta with 
bipartisan co-sponsors, a bill aptly named ``The Caring of the Fallen 
Act''.
    It is an honor to appear this morning and speak on behalf of over 
eight thousand American veterans and their families who cannot speak 
for themselves.
    The history of Clark Veterans Cemetery (CVC) is now well known; 
that the cemetery was created in 1948 as an American military base 
cemetery with the remains of several other U.S. military cemeteries in 
the Philippines; that those buried are our veterans and the families of 
those who fought in the Civil War and all wars since including those in 
the Middle East; that our country abandoned the cemetery in 1991 
following the destruction of Clark Air Force Base by ash from the 
eruption of Mount Pinatubo; that no provision was made for the 
perpetual care of those interred when a United States/Philippine 
military base agreement was rejected by the Philippine Senate; that for 
the past eighteen years the local VFW post has maintained the cemetery 
with volunteers and donations; that the CVCRA was formed to conduct 
research and advocate for our government to resume care of the 
cemetery; that the CVCRA has made formal presentations to the American 
Battle Monuments Commission (ABMC) and the National Cemetery 
Administration of the Department of Veterans Affairs (NCA VA); that 
both organizations believe that care and maintenance of the CVC is not 
in their mission and that Congressional direction is necessary.
    The research we have conducted has dispelled myths used in the past 
by government agencies who felt that the CVC was a ``local community 
cemetery'', that ``no U.S. war dead'' were interred, and that the 
cemetery is ``open to burial for Filipino civilians . . . (and) 
Japanese civilians''. Current and accurate information will be found on 
our Frequently Asked Questions (FAQ) Sheet'', which is attached.
    The CVCRA has attracted many allies whose organizational logos will 
be found on our web site www.CVCRA.org; Association of the United 
States Army, Association of the United States Navy, Air Force 
Association, Air Force Sergeants Association, Special Forces 
Association, Military Order of the Purple Heart, Vietnam Veterans of 
America, Military Officers Association of America, etc. The American 
Legion has passed a resolution and I am attaching a copy.
    Mr. Chairman, Clark Veterans Cemetery sits equidistant between the 
Manila American Cemetery and Memorial and the Cabanatuan American POW 
Memorial, both beautifully maintained by the American Battle Monuments 
Commission. Adding what should be properly titled the ``Clark American 
Cemetery and Memorial'' to the ABMC mission is the practical and 
morally right thing to do.

    Most respectfully, Dan McKinnon

    Attachments:
    CVCRA FAQ Sheet
    Resolution No. 60, 93rd National Convention of the American Legion
                 Frequently Asked Questions (FAQ) Sheet
    Q. What is the Clark Veterans Cemetery?
    A. The Clark Veterans Cemetery, previously called the Clark 
American or Military Cemetery, is an American military cemetery on the 
old U.S. Clark Air Force Base in the Philippines. It was established in 
1948 following WW II to receive the remains of four earlier American 
military cemeteries that were being closed at the end of World War Two. 
Two of these cemeteries were located nearby at old Fort Stotsenburg, an 
Army Post that dated back to 1902, one was at the U.S. Navy base at 
Sangley Point on the Bay of Manila which included relocated graves from 
the old USN/USMC Olongapo Cemetery, and the largest, Fort William 
McKinley in Manila, which was another Army post that dated back to 
1901. The property of Fort Stotsenburg with its adjoining Clark Army 
Air Field later became the Clark Air Force Base in 1949 and Fort 
McKinley became the site for the Manila American Cemetery and Memorial 
dedicated in 1960 to honor and handle the remains of World War Two dead 
from the Philippines and throughout Southeast Asia.
    Q. What do you want done with the cemetery?
    A. When the USAF left Clark AFB in 1991 following the devastating 
impact of the volcanic eruption of Mount Pinatubo and the rejection by 
the Philippine Senate of any future U.S. military presence in the 
Philippines, there was no U.S. Government (USG) provision made for the 
long term care of this century old and historic American military 
cemetery. Stories differ over what happened and who should have done 
what, but the outcome was the same. The cemetery was left forgotten, 
abandoned and unattended with its wrought iron fencing and other 
valuable property looted, the grounds and headstones covered with ash, 
and what had been hallowed ground was left desolate, deserted and 
encroached with heavy vegetation. Contrary to the warriors creed to 
``leave no one behind'', the U.S. Government has abandoned and left 
behind thousands of veterans, including war dead from the Spanish 
American and Philippine American Wars. We want the United States 
Government to reassume its rightful and obligatory responsibility to 
maintain the cemetery.
    Q. How many are buried at the Clark Veterans Cemetery?
    A. Records exist for over 8,600 - all of which were authorized for 
interment in their Military Post cemeteries. This includes veterans who 
served in every war since and including the Civil War and the more 
recent war in Iraq. Those interred profile a century of history of the 
U.S. military presence in the Philippines, including those Killed in 
Action (KIA) during the Spanish American and Philippine American Wars. 
Because the Clark cemetery was established by moving the remains of 
four other American military post cemeteries, after a period when the 
Philippines and the American bases had been devastated by WW II, much 
of the history and records were lost. For example, recent research has 
documented that 1,055 of the more than 2,100 listed as ``unknowns'' 
were soldiers, sailors and marines who died and were buried during the 
period 1900-1906 during the Spanish American and Philippine American 
Wars. In 1908, a Monument to these ``Unknown Dead Soldiers, Sailors and 
Marines of the United States'' was erected in the old Fort McKinley 
military post cemetery and later moved to Clark in May 1948.
    Q. Who are buried at Clark?
    A. The 8,600 burials include only those that served with our U.S. 
military in the Philippines since 1900 - - each authorized for 
interment. The cemetery is the final resting place for all non WWII 
dead who died and were buried in various military post cemeteries 
throughout the Philippines. In 1948, a decision was made to consolidate 
all non WWII dead in a new cemetery at Clark. The cemetery includes 
every branch of service and personnel serving in a broad range of 
specialties including Quartermasters, Trumpeters, Ordnancemen, Cooks, 
Boatswain Mates, Storekeepers, Airman, Marines and Seamen and their 
dependents. There also are a few civilians who served in Quartermaster 
and other military billets during the early 1900s and a handful of 
others - - all authorized by the U.S. Government. Over 5,000 remains 
were relocated from the former Army cemetery at Fort McKinley to make 
room for the new WWII American Military and Memorial in Manila. Many of 
the American military, from the time of annexation of the Philippines 
in 1898 from the Spanish, remained and worked as civilians were also 
buried.
    Q. Is there a large number of civilians buried in the cemetery?
    A. No, however at one time that was a perception. CVCRA recently 
retained a Military Historian who has conducted exhaustive research and 
found virtually all who were classified as civilians were in fact 
veterans. Many of these were soldiers who came to fight in the Spanish 
American and Philippine American Wars. Upon discharge, they remained 
working in the Philippines as civilians - - their headstones 
inaccurately reflected that they were civilians when their military 
records clearly demonstrate that they were in fact veterans. For 
example Private Henry A. Wigley served three years in the Army as a 
nurse in the Philippines during the Spanish American War and was 
assigned to the hospital at Fort McKinley, Manila. He was separated in 
1901 at the end of his three year enlistment and continued to work as a 
health care provider treating the local population in the Philippines 
until the time of his death in 1916. Another example is Christian 
Oleson, a Teamster in the Army Quartermaster Department who died May 1, 
1901 after serving in the military during the Spanish American War. 
Christian is but one example of literally hundreds of Teamsters, 
Ferriers, Blacksmiths, Wheelwrights and Packers who served in the Army 
Quartermaster Department in the early 1900s as a civilian but were 
actually veterans who separated and continued to serve in a civilian 
capacity. This is not unlike what we see today in Iraq or Afghanistan 
where service members separate and then go to work for a company 
providing support services. The cemetery is comprised of American 
veterans and their dependents.
    Q. How about American dependents?
    A. There are military dependents buried in the cemetery. Military 
dependents are authorized for burial in all U.S. military cemeteries. 
Further, both Fort McKinley and Clark AFB hosted large hospitals. Both 
hospitals treated the military and their families, many of whom died of 
complications. Perhaps this is best illustrated in the 50 sets of twins 
who are interred in the cemetery. They all died due to complications 
during childbirth while their active duty parents were assigned in the 
Philippines at the time of the deaths. All the records of dependents 
researched to date are entitled to be buried in the cemetery and in 
each and every case, authorized by the military post commander.
    Q. Are there Filipinos buried at Clark?
    A. Yes There are almost 650 Philippine Scouts buried at Clark 
dating back to the first recorded burial in the cemetery - - Private 
Santiago Belona, USA who died January 13, 1900. There are over 500 
Scouts buried in the American Cemetery and Memorial in Manila. 
Philippine Scouts served with distinction on active duty in the U.S. 
Army and have a proud and historic tradition. In WWII the first three 
U.S. Army Medals of Honor were awarded to Philippine Scouts for heroism 
displayed during the battle of Bataan. There were many other Filipinos 
who served on active duty in the Armed Forces under special programs 
that allowed Philippine nationals to serve in the US military on active 
duty. For many years through the mid 1980s, the U.S. Navy quota for 
Filipino recruits was 2,000 per year. It stands to reason that there 
would be Filipino military who served in the U.S. Armed Forces and 
their dependents buried at Clark.
    Q. Are there any monuments in the cemetery?
    A. Yes, several. Perhaps the most prominent is the Monument to the 
Unknown Dead. This historic monument was erected in 1908. The marble 
itself is of high quality and imported from the state of Vermont. It 
was originally erected in the old Fort McKinley military cemetery by 
the Ladies Memorial Association of Manila in remembrance of ``America's 
Unknown Dead Soldiers, Sailors and Marines''. Subsequent research has 
shown that the monument specifically commemorates 1,055 unknown 
American military dead who died between 1900 and 1906 during the 
Philippine American and Philippine American wars. This monument 
remained in the Fort McKinley cemetery and was damaged in 1944 with 
bullet and shrapnel pockmarks during the heavy fighting that took place 
on the site to liberate Manila. It was relocated to Clark along with 
5,000 graves from Fort McKinley in May 1948 to make room for the new 
WWII American Cemetery and Memorial in Manila. The historical 
significance of this monument goes even deeper. The monument was 
engraved and installed in 1908 by Francisco Rodoreda, a Spaniard who 
had a marble shop on Calle Carriedo in Manila which survived the civil 
and social turmoil of the Spanish American War and transition from 
Spanish to American control of the islands. This same shop and merchant 
are referred to and quoted by name in Jose Rizal's ``Noli Me Tangere''. 
Jose Rizal is perhaps the Philippines most renowned and respected 
national hero and his book, ``The Noli'' is perhaps the most famous 
book in the country.
    Q. Tell me more about the Unknowns?
    A. All ``unknowns'' are unknown in name only. They are all 
veterans. They are buried in military cemeteries around the world, 
including Arlington. We know, with certainty, based on our recent 
research of U.S. Army archives that 1,055 died during the period 1900-
1906. This information is found in the Annual Report of the U.S. War 
Department, submitted by the Headquarters, Philippine Division, on July 
1, 1906 as explained on pages 236 - 237 of the Army Morgue Report 
Section delineating those who died in the Philippines during the SAW 
and PAW. The balance of the 2,100 unknowns, 1,045, that are now buried 
in CVC are the graves that were damaged during the heavy fighting that 
took place in the old Fort McKinley military cemetery during the 
liberation of Manila in 1944. Each of these 1,045 unknowns were all 
``known'' veterans whose graves, headstones and records were lost or 
destroyed during the fighting. Other evidence includes photographic 
documentation from WWII depicting the war damage inflicted on the 
graves and the Monument to the Unknown Dead Soldiers, Sailors and 
Marines.
    Q. Can the cemetery be considered a community cemetery?
    A. No, absolutely not. The historic record is clear, the Clark 
Veterans Cemetery was originally established as a U.S. military 
cemetery and the four cemeteries from which remains were moved to 
create the Clark cemetery were also all U.S. military post cemeteries 
where only those authorized by the American government could be buried. 
The cemetery has a continuous and unbroken linage of being exclusively 
U.S. military post cemeteries whose origins go back to the 19th 
century. The cemetery was American created and American controlled for 
the repose of American dead with the expectation of perpetual care. 
Further attesting to this is a Monument in the Clark cemetery that was 
dedicated on July 4, 1984 by the Commander of the 13th US Air Force 
which specifically states ``it is the last active USAF cemetery outside 
the United States''. All burials for over a century have been solely 
under U.S. military authority and rules and never has it been open to 
the public. Since the USAF left in November 1991, there have been 375 
additional burials supervised by the local VFW Post. Each and every one 
has been an authorized American veteran, and exclusively veterans with 
a supporting DOD Form 214 on file. At no time in its 112 year history 
has the cemetery ever been a private, public or community cemetery.
    Q. Are there people from other countries buried there?
    A. There are a very small number of isolated examples where the 
U.S. Government authorized burials of foreign nationals because the 
deaths occurred on the military installation. For example, among the 
30,082 Vietnamese boat people/refugees that were repatriated in 1975, 
there were nine that died while in American care while waiting 
relocation in the Clark refugee camp and processing center. There is 
one French Navy Commander interred in 1905 and one Royal Canadian Navy 
Third Class Petty Officer of Chinese decent buried in 1956 where the 
reasons for burials are unknown. These are clearly exceptions. The 
cemetery, and its four predecessor cemeteries, were all originally 
established exclusively as military cemeteries. All have been managed, 
funded and maintained, for over nine decades, as American military post 
cemeteries - - and to this day is exclusively an American military 
cemetery. The VFW Post 2485 has continued to protect the integrity and 
heritage to this day.
    Q. What do you want the U.S. Government to do?
    A. The United States has military and veterans cemeteries in the 
U.S. and all over the world. Until the USAF left the Philippines, this 
was one of them. It still is, however no U.S. government agency assumed 
responsibility after Clark Air Force Base was closed. Military 
cemeteries in the US are administered by the National Cemetery 
Administration (NCA) of the Veterans Administration (VA). The American 
Battle Monuments Commission (ABMC) administers those cemeteries and 
monuments outside the U.S. It is important that the U.S Government 
reassume its rightful and obligatory responsibility. CVCRA believes the 
American Battle Monuments Commission should be tasked with taking 
charge, a logical recommendation considering that they already have two 
nearby sites in the Philippines and have the requisite experience and 
infrastructure.
    Q. You said ``we''. Who are you and what do you represent?
    A. We are a group of veterans, former government officials, 
businesses and organizations, and other individuals who care about 
veterans and who have formed the Clark Veterans Cemetery Restoration 
Association (CVCRA). CVCRA is a private non-profit corporation of the 
state of Oklahoma established for the sole purpose of bringing 
attention to this forgotten and abandoned American military cemetery 
while advocating the U.S. Government to reassume responsibility for it. 
CVCRA has gained the support of many Allies, which are the leading U.S. 
military and veterans groups in the U.S., such as the Veterans of 
Foreign Wars (VFW), the American Legion, the Association of the U.S. 
Army (AUSA), the Association of the U.S. Navy (AUSN), Air Force 
Association (AFA), Vietnam Veterans Association (VVA), Military 
Officers Association of American (MOAA) and the Air Force Sergeants 
Association (AFSA) to name a few. The Military Coalition (TMC), the 
umbrella organization for 34 of these entities, representing 5.5 
million members, is formally supporting the cause. You will find names 
and organizations that support this cause on our web site, 
www.CVCRA.org.
    Q. It is understood that the U.S. Navy some years ago rejected the 
idea that our government should care for this cemetery?
    A. A group of veterans brought up the subject of care of the 
cemetery to the Navy's Year 2000 Meeting of its Retiree Council and 
requested that the Navy lead an effort with the State Department, 
Department of Defense, the VA or the ABMC to take action. The response 
was ``do not concur'', regrettably caused in large measure by erroneous 
information and a misunderstanding that ``Clark AFB cemetery is open to 
burial for Filipino civilians and military, Japanese civilians and 
military''. This is not and was not accurate. The balance of the 
response used phrases such as a ``lack of compelling case'', ``support 
for a request . . . .is unlikely'', etc. It is opined that the Navy, 
instead of non-concurring with its veterans request out of hand, should 
have referred the matter to other more appropriate authorities. These 
could have been the National Cemetery Administration of the Veterans 
Administration, the American Battle Monuments Commission, or even the 
U.S. Air Force whose original lack of provision for the cemeteries 
future is a cause of the current dilemma. A unilateral rejection of 
interest by the Navy of a plea from its own veterans is not understood 
since the matter falls more likely under the jurisdiction of others.
    Q. Why did the U.S. Air Force fail to make provisions for the 
cemeteries perpetual care and administration when they closed the base?
    A. This is a good question. In order to understand what transpired, 
one has to go back to the 1990-1991 time frame. The U.S. Government had 
entered into sensitive negotiations with the Government of the 
Philippines to renew the base lease agreements. At that point in time 
there were protests and tensions associated with parties who wanted the 
Americans out of their country. This resulted in some violence and the 
USAF locking-down the base for some periods of time - - so tensions 
were high. In June of 1991, in preparation for a potential threat from 
a nearby volcano, the USAF flew out all aircraft and evacuated 15,000 
airmen and their families to the Subic Naval Station. After weeks of 
touch and go, Mt. Pinatubo violently erupted totally destroying the 
base. Now installation commanders were faced with a destroyed base, an 
evacuated populace and aircraft and had a lot on their minds. Later the 
Philippine Senate failed to ratify extending any American presence and 
the USAF decided enough was enough and decided to close the base as 
quickly as possible. Unfortunately, in the haste to close the base, the 
cemetery was overlooked. A case can be made that the USAF should have 
passed stewardship to the ABMC or other government agency at that time, 
and there is some indication this was considered as official USAF 
documents indicate that records for the cemetery was transferred to the 
U.S. Embassy and ABMC in Manila. However, no one followed through and 
the cemetery quickly fell into a state of disrepair and disgrace.
    Q. What is the condition of the cemetery now and is anyone caring 
for it?
    A. In 1994, after three years of abandonment, the local post of the 
Veterans of Foreign Wars (VFW) stepped in to clean-up and restore the 
cemetery as best they could with their limited resources. Along with 
other civic groups such as the Rotary, American Legion and other 
volunteers, the VFW led the team and went on to take ownership of the 
cemetery absent a responsible agency of the U.S. Government. VFW Post 
2485 negotiated a memorandum of agreement that dates to 1994 with the 
Clark Development Corporation, the Philippine government entity 
responsible for the Clark area, allowing the VFW to administer and 
maintain the cemetery. Since the cemetery has remained an exclusive 
American military cemetery the VFW Post has facilitated, administered 
and authorized only American Veterans and Philippine Scouts who served 
in the US Army to be buried since their assumption of management in 
1994. A valid DOD Form 214 and death certificate are required. Since 
1994, an additional 375 veterans have been buried - - exclusively 
veterans. Our VA provides the headstone and burial flag and U.S. 
military honors are rendered by the VFW. The VFW Post conducts fund 
raisers and has retained a modest maintenance staff. Two American small 
businesses have also volunteered to help; one constructed a new 
perimeter fence and attractive entrance gate, built a new memorial 
plaza and parking lot and provides 24x7 security. The other restored 
the 1908 Monument to Unknown Dead.
    Q. If the USG assumed responsibility, what would it cost to 
maintain the cemetery?
    A. The VFW expends $25,000 a year in actual out of pocket expenses 
to mow and maintain the cemetery. Given that labor rates are very 
modest in the Philippines, CVCRA estimates an annual budget of $250,000 
would sustain the cemetery if managed by the U.S. Government allowing 
for a full time U.S. Civil Servant and a few more bags of fertilizer or 
equipment. Over time there could be a need to uncover the lower half of 
epitaphs buried by the volcanic ash and realign headstones. This one-
time expense could be planned and programmed and placed in out-year 
budgets which would then bring the cemetery up to the same standard as 
other contemporary U.S. American Military cemeteries. For troubled 
veterans observing the negative publicity associated with the 
managerial and fiscal deficiencies of our country's flagship military 
cemetery, Arlington National Cemetery, the cost to maintain Clark pales 
in comparison to that alleged cost of malfeasance.
    Q. Since the American Battle Monuments Commission (ABMC) has a 
congressional charter to maintain American military cemeteries and 
monuments outside the U.S., has it been formerly approached to take 
over the cemetery?
    A. Yes. CVCRA formally briefed the ABMC Commissioners in Hawaii in 
November 2010. ABMC acknowledges that the Clark cemetery is, was and 
always has been a military cemetery; however they do not believe it is 
their mission. CVCRA disagrees. ABMC is chartered under 36 USC 21, 
which CVCRA believes provides latitude for ABMC to accept management 
responsibility of the cemetery now. Clark is historically significant, 
since its creation was done at the same time as the cemetery in Manila. 
In fact, the Clark cemetery was on the critical path to creating the 
Manila WWII cemetery. Further, there is official USAF documentation 
that indicates that between 1991 and 1993, the USAF turned over Clark 
cemetery records to ABMC and the Embassy in Manila. Further, a common 
sense solution for the American tax payer is that ABMC is the most 
logical choice, because of their professionalism and standard that they 
maintain in all the other ABMC cemeteries on foreign soil, and because 
they already manage two other sites in the Philippines, both 
equidistant north and south of Clark. It would be easy to amend their 
grounds keeping, landscaping and maintenance contracts to accommodate 
Clark.
    Q. But do you know if the ABMC has a formal position on Clark?
    A. ABMC in a congressional letter in 2010 has indicated that they 
believe it is not in their mission, that it is a veteran support matter 
properly the responsibility of the VA. ABMC takes the position it is a 
VA action as a ``veteran's benefits issue''.
    Q. What about the U.S. Department of Veterans Affairs, National 
Cemetery Administration (VA NCA)?
    A. CVCRA formally briefed the Under Secretary for Memorial Affairs 
in January 2012. Unfortunately, the VA NCA takes the same position as 
ABMC and states that the CVC is not in their mission statement and 
therefore not their responsibility. VA NCA further argues that they do 
not manage cemeteries overseas; however they do manage the cemetery in 
Puerto Rico (which ironically was in the same situation as the 
Philippines both becoming American territories after the Spanish 
American War). VA NCA also argues that they must own the property for 
which they administer. The bottom line, like ABMC, VA NCA believes it 
is not in their mission.
    Q. Is there a preference for what American Agency should assume 
responsibility for the cemetery?
    A. The ABMC is the most logical choice given their overseas mission 
and presence in neighboring Manila, but as stated earlier, the 
important thing is that the U.S. Government recognizes the obligation 
to its deceased veterans and reassumes care and administration of its 
cemetery. Clark was, is, and always has been, an American military 
cemetery with over a hundred year record of American burials, from the 
Spanish American War to the present. We have focused on the ABMC as the 
choice most logical and beneficial to the taxpayer. The ABMC maintains 
the Manila American Cemetery and Memorial south of Clark as well as the 
Cabanatuan POW Camp Memorial north of Clark. The Clark cemetery is 
located between the two and it would be simple and inexpensive to add 
Clark to the ABMC maintenance contract. Clark also has a rich WWII 
history. Clark was attacked simultaneously with the bombing of Pearl 
Harbor, the Death March trains passed within 100 yards of the cemetery 
and the first hero of WW II, Captain Colin P. Kelly, who was stationed 
at Clark Field, earned the Distinguished Service Cross for gallantry 
for his actions on December 10th (December 9th in the US). After 
bombing a Japanese warship his aircraft was hit on his return to Clark 
Field. He managed to keep his B-17 airborne long enough to allow his 
crew to parachute to safety before he was able to escape as his plane 
crashed just off of the northern end of Clark's runway. Similarly the 
Monument to the Unknown Dead located in the Clark cemetery is dedicated 
to the 1,055 unknown dead soldiers, sailors and marines who died 1900-
1906 during the Spanish American and Philippine American Wars and was 
damaged during the fighting to liberate Manila in 1945.
    Q. Do you think that the ABMC's charter and rules would prevent it 
from taking charge?
    A. One would hope not. Obviously there are other choices - - VA NCA 
and USAF being two of the more obvious. Both have some responsibilities 
in the matter. Our government faced a similar situation when the Panama 
Canal, like the Philippines at one time treated as a U.S. possession, 
was returned to the Panamanian government. There too was an American 
cemetery with a lineage to 1904. By Executive Order, the ABMC assumed 
responsibility in 1982 even though the burials included predominately 
workers who had labored on the canal. In addition the ABMC is 
responsible for a small 19th century U.S. military cemetery in Mexico. 
Also the USAF in 2008 provided $500,000 to the ABMC to assist with an 
engineering study of the Lafayette Escadrille Memorial in France whose 
private foundation had received a $2.1M USG restoration grant. Where 
there is a will there is a way. What is disappointing is that no Agency 
has picked up the challenge to help find a solution.
    Q. What is the Philippine Government position on this?
    A. The Philippine Government has been most supportive. The 
Philippine Government official position is that they would welcome the 
U.S. Government recognizing its responsibility to care and administer 
the cemetery. Most legal authorities believe that a simple Usufruct 
Agreement, a Memorandum of Agreement or exchange of Diplomatic Notes 
would be sufficient for the U.S. Government to assume responsibility 
for the care and administration of the cemetery. This is the same legal 
framework that underpins most of the ABMC sites around the world. The 
Philippine Government is most receptive to making this happen.
    Q. What then needs to happen to fix the problem?
    A. Although we feel 36 USC 21 empowers the Commissioners of the 
ABMC to assume stewardship of Clark CVC, its staff and that of the VA 
NCA believe that authorizing legislation is necessary. Accordingly, we 
have worked with several congressional offices with the result that 
Congressman Frank Guinta of New Hampshire, with both Democratic and 
Republication co-sponsors, has introduced HR 4168, the ``Caring for the 
Fallen Act'', in the House of Representatives and we expect a companion 
bill to be forthcoming in the Senate. This legislation amends 36 USC 21 
and directs the ABMC to maintain Clark Veterans Cemetery. We strongly 
feel that based on ``history, cost, competence and law'', that ABMC is 
the correct choice. The legislation is ``budget neutral'' and we hope 
for enactment before the year is out. This would allow the 
professionals of the ABMC to, over time, budget for, restore, and 
maintain the cemetery to their high standards, and honor the American 
veterans and their families interred there in the manner that is our 
American heritage.
    Q. Who are your Allies on this quest?
    A. We began building support in 2011 by first creating a web site 
where accurate information about the cemetery could be posted and 
updated. As our research advanced, old myths about the cemetery 
disappeared. We created places on www.cvcra.org where individuals could 
show they cared by signing on as ``Champions'' and organizations as 
``Allies''. Last summer the American Legion passed a resolution of 
support and we expect the VFW to do the same this year. Many other 
wonderful organizations like Vietnam Veterans Association (VVA), 
Military Order of the Purple Heart (MOPH), Special Forces Association 
(SFA), Military Officers Association of America (MOAA), the Association 
of the U.S. Army (AUSA), Association of the U.S. Navy (AUSN), Air Force 
Association (AFA) and many others have added their support and signed 
up as Allies. We began talking to and emailing Senators and Congressmen 
and many of our Champions who signed on to help us did the same. 
Individual Senators and Congressmen like Senators Ayotte and Webb and 
Congressman Guinta were early supporters. In early 2012 we made a 
presentation to the ``The Military Coalition'', the umbrella 
organization of the 34 veterans and military service organizations that 
speak and advocate on behalf of 5.5 million members for veteran issues 
before our Congress and the American people. They have added our quest 
to their 2012 TMC legislative goals and agenda. There is no reason why 
any American who values those men and women who served their country 
would not join in our effort.
    Q. Why hasn't something been done before?
    A. After the U.S. Air Force departed in 1991, followed by three 
years of abandonment, much of the history and all of the records were 
misplaced or became lost. In 1994 volunteers of VFW Post 2485 stepped 
forward to do what they could, however they had no experience 
administering cemeteries; and without records or a documented history 
resorted to word of mouth and folklore when answering inquiries. Over 
the next two decades a lot of misinformation began to emerge, much of 
it harmful indicating that CVC was a private cemetery, that it was a 
civilian cemetery, or that foreign nationals including Japanese, 
Chinese and Spanish were all buried there. None of which was true, 
however the damage had been done and it served to dampen and limit 
external public interest. In 2010, a group of concerned veterans began 
researching the history of CVC. The more they found, the more they 
realized how badly the history of the cemetery had been tarnished and 
distorted and that something had to be done. In 2010, they formed a not 
for profit organization, the Clark Veterans Cemetery Restoration 
Association (CVCRA), whose sole purpose is to research, educate and 
convince the U.S. Government to ``right a wrong''. One of the first 
efforts was to create an interactive web site where accurate 
information could be exchanged. CVCRA then retained a military 
historian to formally conduct research of U.S. military archives. The 
information that emerged has proven and illustrated that the CVC is, 
was, and always has been a military cemetery. Unfortunately, there was 
two decades of misinformation in the public domain that had to be 
corrected. CVCRA has been successful correcting the record through 
formal briefings to ABMC, VA NCA and members of Congress, and by 
sharing this information through the www.cvcra.org web site. This has 
resulted in a better understanding of CVC's rich American military 
history.
    Q. How can I help?
    A. Go to the Clark Veterans Cemetery Restoration Association 
(CVCRA) web site, www.cvcra.org, and sign on as a ``Champion''. If you 
are a member of an organization, encourage your organization to sign on 
as an ``Ally''. And of course, help us get legislation passed by 
writing your Congressman and asking them to sign on and support HR 4168 
and write your Senators to sponsor a companion bill in the Senate.

                                 <all>

</pre></body></html>
